<html>
<title> - NOMINATION</title>
<body><pre>[Senate Hearing 111-934]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-934
 
                               NOMINATION 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-253 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        























                            C O N T E N T S

                              ----------                              
                                                                   Page

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    13
Ford, Hon. Robert Stephen, nominee to be Ambassador to the Syrian 
  Arab Republic..................................................     5
    Prepared statement...........................................     7
    Responses to questions submitted for the record by the 
      following Senators:
        John F. Kerry............................................    23
        Richard G. Lugar.........................................    26
        Russell D. Feingold......................................    30
        Barbara Boxer............................................    32
        Kirsten E. Gillibrand....................................    33
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

                                 (iii)

  


                               NOMINATION

                              ----------                              


                        TUESDAY, MARCH 16, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

Hon. Robert Stephen Ford, of Maryland, to be Ambassador to the 
        Syrian Arab Republic
                              ----------                              

    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Cardin, Casey, Webb, 
Kaufman, Lugar, and Isakson.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order. Thank you 
all for joining us this morning.
    I have long argued that America's national security 
interests are well served by engaging with Syria. And to that 
end, I have made a number of journeys there over the course of 
the last 4 or 5 years in efforts to explore the possibilities.
    The administration's decision to send an Ambassador to 
Damascus marks an important step forward in that process. I am 
pleased to see that the administration has nominated a strong 
candidate to take on this challenging assignment. After 21 
years in the Foreign Service, Robert Ford served as Ambassador 
to Algeria from 2006 to 2008. And since then, he has served 
with distinction as the Deputy Chief of Mission in Iraq.
    His success in this new post will be vital. From Iran and 
Iraq to Lebanon and the Arab-Israeli peace process, just about 
every major American security interest in the Middle East has a 
Syrian dimension. Clearly, we have serious issues with Syria 
still to be resolved.
    While the flow of foreign fighters into Iraq has 
diminished, more remains to be done to shut down the pipeline. 
Large numbers of deadly weapons continue to transit across 
Syria's still undemarcated borders with Lebanon. Hezbollah now 
has more--and more dangerous--rockets than it did before the 
2006 war. Last month, the director general of the IAEA 
determined that the Syrians have not been cooperative with 
their investigation into the suspected nuclear site at al-
Kibar.
    Journalists, students, and human rights activists have been 
arrested. And Syria's recent public rebuke of Secretary Clinton 
and embrace of Mahmoud Ahmadinejad, Hassan Nasrallah, and the 
leaders of Hamas, Islamic Jihad, and the PFLP GC sent a very 
negative signal about the current mood in Damascus. At best, it 
was bad optics.
    Syria has its own list of requests, topped by the removal 
of U.S. sanctions and the return of the Golan Heights. Syrians 
will argue that they have taken positive steps, including 
sending an Ambassador to Beirut, continuing to host hundreds of 
thousands of Iraqi refugees, and agreeing to trilateral talks 
with the United States and Iraq on border security--discussions 
that I was personally involved in--and they would argue that 
those steps have not been reciprocated by the United States. It 
is fair to say that we have a great deal to discuss.
    So President Obama did the right thing by deciding to send 
an Ambassador to Syria to make our case at the highest levels. 
Some have pointed to our disagreements as a reason not to 
pursue this nomination, but I believe just the opposite is 
true. We need an Ambassador now because we are at such a 
pivotal moment. Remember, my friends, diplomacy is not a prize. 
It is something we do to advance our interests, and we should 
not fear forceful, principled engagement.
    The real challenge is not deciding whether to engage. It is 
to find a viable path to improved relations. I believe that 
with confident, carefully calibrated diplomacy, we can show 
Damascus what it stands to gain by moderating its behavior and 
what it stands to lose by going in the other direction.
    To succeed, we must present Damascus with a clear choice 
and a vision of a different future. I have met with President 
Assad on several occasions. And I have shared these concerns, 
and I have heard his. And frankly, we have had a good dialogue, 
and I saw many possibilities for joint cooperation and other 
kinds of efforts between us.
    I believe he understands that his country's long-term 
interests, and his own as the head of a secular government--
something that he prizes--that those long-term interests are 
not well served by aligning Syria with a revolutionary Shiite 
regime in Iran and its terrorist clients. To the contrary, 
Syria would be on much firmer footing if it instead builds 
meaningful ties with America, its Arab neighbors, and the West.
    President Assad understands the economic stakes as well. 
Syria's oil wells are beginning to run dry just as the half of 
its population under 18 begins to enter the marketplace, an 
economic strain exacerbated by corruption, budget deficits, and 
years of drought. Syria clearly wants to join the global 
economy, and that will require closer ties with the rest of the 
world.
    All of us should be realistic about what engagement can 
accomplish. A Syrian realignment won't come automatically or 
overnight. But let me clear. It will never come at the expense 
of Lebanon's sovereignty.
    But if we do succeed, it could be transformative in 
galvanizing the Arab-Israeli peace process and dramatically 
improving the situation for our friends in Israel, Lebanon, 
Iraq, and the West Bank. In short, this moment presents us with 
an opportunity to change the strategic landscape in the Middle 
East, and that is an effort that we cannot afford to ignore.
    Most immediately, we have much to gain by reinvigorating 
Syrian-Israeli diplomacy. Today, the parties have reached a 
public impasse. President Assad wants Israel to make what is 
called ``the deposit,'' promising that a successful deal will 
deliver the Golan Heights to Syria. Prime Minister Netanyahu, 
on the other hand, considers that an unacceptable precondition. 
So we need to explore the role that the United States can play 
in bringing the parties together to bridge this divide.
    History shows that progress is not just a pipe dream. 
Progress is possible. Remember, in the 1990s, two Israeli Prime 
Ministers came very close to an agreement with Syria. And just 
over a year ago, Prime Minister Olmert and President Assad made 
real progress toward direct talks in negotiations brokered by 
Turkey.
    Going forward, our challenge is to translate this potential 
into tangible progress measured in changed behavior. Over time, 
splitting the difference will not be acceptable, and Syria may 
not make the choices that we think may be in its best 
interests. But the only way to determine whether Syria will 
decide on a different future is to put real, clear choices on 
the table, and having an ambassador there on a daily basis to 
engage in that dialogue enhances our ability to do that.
    Ambassador Ford, you come highly recommended. We admire the 
job that you have been doing in Iraq enormously, and I think 
you will bring just the right talents to this task. Once you 
are confirmed, we look forward to working closely with you.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman, and I join with you 
in welcoming Ambassador Ford back to our committee. During the 
last several years, you have accepted some of the most 
difficult assignments a diplomat could undertake. As the 
chairman noted, you are currently the Deputy Chief of Mission 
in Iraq. But you also headed the Political Section in Iraq for 
3 years, and as I understand it, even as DCM to Bahrain and 
Ambassador to Algiers, you were sometimes posted in Iraq on 
extended temporary duty. The nominee's long record, Mr. 
Chairman, of skilled diplomatic service to our country clearly 
qualifies him for this post.
    We open our hearing with the understanding that we are 
discussing not just the nominee's qualifications, but also 
policy decisions related to Syria and our diplomatic 
representation in that country. Syria has been on the state 
sponsors of terrorism list since it was originally published in 
December of 1979. Despite recent United States overtures, 
relations with Damascus remain deeply strained. Just 2 weeks 
ago, in a joint press conference with the President of Iran, 
Syrian President Bashar Assad made inflammatory remarks that 
raised the question whether the regime is prepared to engage at 
any level with the United States.
    More concretely, Syrian actions frequently have been 
hostile to United States interests. Damascus has been unhelpful 
to stability in Iraq and the safety of our troops there. It has 
supported Hamas and Hezbollah. It has harbored Iraqi Baathists, 
and possibly Al Qaeda in Iraq operatives. It has long 
suppressed basic freedoms and human rights and obstructed IAEA 
investigations. Even cooperation on much smaller issues that 
are in Syria's own interest has been rare. For example, Syria 
has refused to grant United States immigration officials visas 
to interview and to process thousands of Iraqis living in Syria 
who are seeking resettlement in the United States.
    Given these factors, we should temper expectations about 
what can be achieved diplomatically with the Syrians in the 
short term. Nevertheless, declining to post ambassadors to 
countries, though sometimes necessary, rarely serves United 
States interests for long. In this case, Syria is an 
unavoidable factor in the Middle East peace equation. As we 
have noted, its actions affect United States foreign policy 
goals in Iraq, Iran, Lebanon, and other neighboring states. It 
is understandable that as the administration tries to make 
progress on several fronts in the Middle East, it is proposing 
to send an ambassador to Damascus for the first time since 
2005.
    I am interested to hear from the nominee about how the 
administration plans to address the set of problems presented 
by Syrian activities and how improving relations with Syria 
fits a broader diplomatic campaign to achieve United States 
goals in the Middle East. And I would also like to hear whether 
the administration believes there are diplomatic risks and 
costs to returning an ambassador to Damascus, and if so, how 
the State Department is planning to mitigate them.
    For these many reasons, we all look forward to the insights 
of the distinguished nominee, and we are privileged to have you 
before us this morning.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Ambassador Ford, we welcome you, as I said. And your full 
statement will be placed in the record as if read in full. If 
you want to summarize, then we will have some time----
    Senator Cardin. Mr. Chairman.
    The Chairman. Senator Cardin.
    Senator Cardin. Could I just interrupt for one moment 
because I am not going to be able to stay for the full 
presentation. I have another hearing. In addition to Mr. Ford's 
incredible professional career, he is from Maryland. And I just 
want you to know that we are very proud of another Marylander 
before our committee and fully recommend him for confirmation.
    Second, let me point out his wife, Alison, is stationed in 
Rabat, in Morocco. So this is a career family that has served 
our Nation very well. It is nice to have Mr. Ford before the 
committee.
    The Chairman. Thank you, Senator Cardin, for those 
comments. We appreciate them very, very much, and I know the 
Ambassador does.
    Mr. Ambassador.

   STATEMENT OF HON. ROBERT STEPHEN FORD, OF MARYLAND, TO BE 
             AMBASSADOR TO THE SYRIAN ARAB REPUBLIC

    Ambassador Ford. Mr. Chairman, Senators Lugar, Dodd, and 
Cardin, it is really an honor to appear before you today.
    I am very grateful for the trust and the confidence placed 
in me by President Obama and Secretary Clinton in nominating me 
to serve as U.S. Ambassador to the Syrian Arab Republic.
    Mr. Chairman, I have submitted a longer written statement 
for the record, and so, if it is OK with you, I would like to 
just make some brief remarks to the committee?
    The Chairman. We appreciate it. Thank you.
    Ambassador Ford. Yes. The President's desire to have a 
sustained and principled dialogue with the Syrian Government at 
the ambassadorial level is in our national interest, and it 
should move us closer to achieving our goals in Syria and in 
the region.
    Let me reiterate that returning an ambassador to Syria 
would not be a reward to Syria, nor would it mark a change in 
the fundamentals of our concerns with that important country. 
Rather, it would mark a change in the way we try to secure our 
national interests in Syria. And Syria has its own interests in 
Iraq, in Lebanon, and in the Middle East peace process.
    Thus, returning an Ambassador would mark a change in how we 
try to persuade, how we try to press Syria about where Syria's 
true interests are best found.
    As President Obama said in his speech at Cairo University, 
the United States should commit itself to an effort, a 
sustained effort to find common ground. But the President also 
said that we should not ignore sources of tension. Instead, we 
have to confront those tensions squarely.
    Especially at a time when the Middle East confronts 
increasing tensions, we should be talking every day and every 
week with top-level officials who have influence and authority 
in Syria. They need to hear directly from us, not from the 
media and not from third-party countries, what American 
calculations and American thinking are and what could be the 
potential costs to Syria of their miscalculations.
    If confirmed, unfiltered, straight talk with the Syrian 
Government will be my mission priority. And if confirmed, I 
have as major issue priorities the following, Mr. Chairman.
    First, getting Syria to be helpful in stabilizing Iraq. In 
addition, getting Syria to stop helping terrorist groups and to 
be more respectful of Lebanese sovereignty. In addition, 
securing Syrian support for the peace process and securing 
Syrian cooperation with the International Atomic Energy Agency. 
And finally, encouraging greater respect of human rights in 
Syria.
    I am under no illusions as to how big a challenge this will 
be. I served for more than 4 years in Iraq, and I have seen 
firsthand the tragic aftermath of terrorist car bombs 
perpetrated by foreign fighter networks that infiltrated 
suicide bombers from Damascus airport into Iraq.
    On the subject of Iraq, let me be clear that I would press 
the Syrians to adapt their policies, and they have an interest 
in doing so. They have an interest in a sovereign, secure, and 
stable Iraq. Notably, Syria and Iraq could establish economic 
ties that would be mutually beneficial for both countries.
    I would also like to underline, as you did, Mr. Chairman, 
that our policy of intensified dialogue with Syria will not 
come at the expense of any other state in the region, including 
Lebanon. The United States is firm in its commitment to 
Lebanon's sovereignty and stability. We want Syria also to 
respect Lebanese sovereignty and stability.
    In recent weeks, we have seen sharp rhetorical exchanges 
between Hezbollah and our friends in Israel, and even the 
Syrians have joined in, in some cases. We do not see how it is 
in Syria's interest for new fighting to break out in Lebanon, 
fighting that could escalate and even drag Syria in itself.
    Moreover, we will maintain sanctions on Syria as long as it 
supports terrorist groups like Hezbollah and Hamas. Thus, if 
confirmed, there is much for me to discuss urgently with the 
Syrians about Lebanon and about Syrian actions in support of 
terrorist groups.
    Connected to this Lebanon situation, Mr. Chairman, is 
another priority--securing Syrian support for our Middle East 
peace efforts. You know how hard our special envoy, Senator 
Mitchell, is working in this regard. Our policy is clear. We 
seek a just and comprehensive peace, a peace that would be in 
the interest of our friends in Israel and in the interest of 
our friends in the Arab region and the broader international 
community.
    We have been urging the Syrians to support our efforts to 
restart negotiations between Israel and the Palestinians. And 
in addition, Senator Mitchell and his team have been exploring 
ways to restart negotiations between Israel and Syria. For the 
past 16 years, the Syrian Government has said a peace agreement 
could be in its interests, and we want to foster movement in 
that direction.
    Mr. Chairman, another big issue is Syria's nuclear program, 
where we in the international community have serious concerns. 
Syria has not cooperated with the International Atomic Energy 
Agency inspectors since June 2008, despite repeated IAEA 
requests. The latest IAEA report has raised big questions, and 
if I am confirmed, I would expect to press the Syrians hard on 
this issue.
    Mr. Chairman, members of the committee, the aspirations of 
people in the Middle East for dignity, economic opportunity, 
and respect for their human rights are dear to me personally 
and professionally. I first went to the Arab region as a Peace 
Corps Volunteer to Morocco 30 years ago. And I am proud to say 
that I worked hard on that issue--human rights and respect for 
human rights--when I was Ambassador in Algeria, and I would do 
so in Syria if I am confirmed.
    As the just-issued State Department report on the human 
rights situation in Syria noted, there are very big problems 
there. And there is much that an Ambassador could and should do 
to help Syrians determine how best to implement peaceful 
reforms and improve respect for human rights.
    In conclusion, Mr. Chairman, this is a big agenda, and it 
is a hard one. It doesn't promise fast results. But all of 
these items are in our national interest, and it is in our 
national interest that we press the Syrians on these issues 
daily at the highest levels.
    Improving relations between us and Syria has to be a two-
way street. It will require that Syria take steps to match 
steps we take. Sometimes we have seen the Syrians respond. For 
example, the Europeans, after long, hard discussions, convinced 
the Syrians to toughen their laws against trafficking in 
persons. And after we pressed, Syria also saw how it was in its 
interests to cut the flow of fighters going into Iraq.
    However, the Syrian Government didn't go as far as we want 
in shutting down those networks. And it reminds us that we have 
to be firm and we have to be patient. Thus, as I said, it is a 
full agenda, but if confirmed, I am ready to start on it.
    Thank you very much. And I would be pleased to take 
questions.
    [The prepared statement of Ambassador Ford follows:]

             Prepared Statement of Hon. Robert Stephen Ford

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I am grateful for the trust and confidence placed in 
me by President Obama and Secretary Clinton in nominating me to serve 
as United States Ambassador to the Syrian Arab Republic.
    President Obama has placed a priority on achieving certain national 
security objectives, such as regional peace. The President's desire to 
have a sustained and principled dialogue with the Syrian Government at 
the ambassadorial level does not promise fast results, but it is in our 
national interest and will move us closer to achieving our goals.
    One thing I have learned in my work in places like Egypt, Algeria, 
and Iraq is that when we talk to governments that take stances contrary 
to our interests, we must be firm and also realistic about the progress 
we can expect to make in a short time. The diplomacy of engagement is a 
long-term investment.
    I have also seen how hard it is for bad news to travel up to the 
top in the region's bureaucracies. So far in this administration's 
effort to engage the Syrian Government, we have only circumvented that 
bureaucratic problem and spoken directly to the top Syrian leadership 
when high-level American delegations have visited Damascus, such as the 
February visit of Under Secretary Burns.
    Especially at a time when the Middle East confronts increasing 
regional tensions, we must be talking every day and every week with 
top-level officials who have influence and decisionmaking authority. 
They need to hear directly from us, not from the media or third-party 
intermediaries, what are our bottom lines and the potential costs to 
them--and to the region--of their miscalculations. If confirmed, 
unfiltered straight talk with the Syrian Government will be my mission 
priority.
    And I am under no illusions as to the nature of the challenge I 
will face if confirmed; during my more than 4 years in Iraq, I saw 
firsthand the tragic aftermath of terrorist car bombings perpetrated by 
foreign fighter networks that infiltrated suicide bombers from Damascus 
airport over the Syrian border and into Iraq.
    The Syrian Government has also been a steadfast supporter of 
terrorist groups like Hamas, Palestinian Islamic Jihad, and Hezbollah 
for more than 20 years. Without significant changes in its policy, 
Syria will remain on our list of State Sponsors of Terrorism for the 
foreseeable future. And while we and our friends in the region are 
working to mitigate Iran's influence, Syria has helped promote Iran's 
destabilizing policies.
    The United States wants a just and comprehensive peace in the 
Middle East. The Syrians say they want the same. The United States 
wants a sovereign, stable, secure Iraq. The Syrians say they do too. 
The United States wants the Lebanese Government to exercise sovereign 
authority over all of its territory. The Syrians say that they accept 
Lebanese sovereignty. However, when it comes to implementation of steps 
to achieve these common goals, our two governments remain far apart.
    While we are working to develop the regional conditions conducive 
for relaunching Middle East peace talks, Syria threatens to play its 
traditional role as a spoiler.
    While we are building the capacities of the Iraqi security forces, 
the Syrian Government hosts networks of both former Iraqi Baathists, 
hard-line Islamists and even TV broadcasters who work to undermine the 
Iraqi state.
    While we are strengthening the institutions of the sovereign 
Lebanese Government and its defense forces, the Syrian President 
prominently hosted the leader of Hezbollah at a state dinner with the 
Iranian President.
    And while we urge countries in the region to comply with their 
obligations under the Nuclear Nonproliferation Treaty and their 
obligations to the International Atomic Energy Agency in Vienna, the 
Syrians have so far refused to provide the IAEA access and information 
necessary to resolve the concerns about Syria's nuclear activities.
    Moreover, there are major human rights problems in Syria, such as 
the arrest and torture of human rights activists.
    I do not think that the Syrians will change their policies quickly. 
Finding avenues of cooperation with Syria will be a step-by-step 
process that will require patience and steady commitment to our 
principles.
    And the Syrians could be very helpful if they perceive how their 
interests are best served by working with us and the international 
community.
    For example, if we are to protect the investment we have made in 
the future of Iraq, we must work with the Syrian Government to make 
clear its stake in the security and stability of Iraq. Certainly Syria 
and Iraq could have significant economic relations.
    If we are to succeed in stabilizing the region, we must persuade 
Syria that neither Iran nor Hezbollah share Syria's long-term strategic 
interest in a comprehensive Middle East peace. Indeed, we must see 
whether the Syrians are truly interested in negotiating that peace 
agreement with Israel.
    Moreover, Syria now hosts the largest population of Iraqi refugees 
in the world. Indeed, many of Iraq's ancient, and once thriving 
Christian populationnow resides in Syria. The Syrian Government has 
been generous in allowing them access to health care and education, but 
the durable solution for most is repatriation and the refugees won't go 
home unless Iraq is stable and secure. Syria is also host to over 
460,000 Palestinian refugees, whose basic services are provided by the 
U.N. Relief and Works Agency for Palestine refugees in the Near East, 
with generous support from the Syrian Government. If confirmed, I will 
seek additional ways where we can cooperate with Syria to help these 
refugees; in the case of the Iraqi refugees, many of them could come 
from Syria to the United States for resettlement.
    Finally, Mr. Chairman, as a former Peace Corps Volunteer and a 
long-time observer of the region, I would note that Syria has the same 
challenge as many of the other countries in the region. Its youth 
bubble--80 percent of Syrians are under the age of 30--faces rising 
unemployment even as they enjoy easy access to satellite television and 
the Internet. Many of them hope that Syria will become a fuller part of 
the Mediterranean and broader international community. So do we. If 
confirmed, I will represent the United States not only to the Syrian 
Government, but to the nearly 20 million Syrians whose opinions of our 
country are distorted on a daily basis by political propaganda. And I 
will regularly find ways to push for improvements in the human rights 
situation in Syria and also to show our high-level support for those 
Syrians working for the promotion of basic human rights in Syria.
    Mr. Chairman, members of the committee, thank you for this 
opportunity to address the committee. I would be pleased to respond to 
any questions you may have.

    The Chairman. Thank you very much, Ambassador. I appreciate 
the framing that you have just presented to us.
    Let me ask you, since you have just been in Iraq, and the 
Iraq tripartite cooperation is a major issue with Syria. There 
is some evidence that Syria may have been blindsided by the 
collapse of the Iraq initiative, and it came about partly 
because of Prime Minister Maliki's needs, not so much ours or 
Syria's.
    Could you share with us your sense of what the 
possibilities are in terms of border cooperation and how you 
might see the current post-election process empowering us to 
move forward in that regard?
    Ambassador Ford. Senator, as I said, the Syrians themselves 
have a real interest in a stable and secure and sovereign Iraq. 
With respect to the tripart discussions that you talked about, 
there was an effort which the administration undertook to bring 
the Iraqis, the Syrians, and some of our experts together to 
look at how to improve security along the border. In the end, 
those discussions didn't happen because of events that occurred 
in Baghdad and the Iraqi political reaction after that.
    We still hope that Iraq and Syria will find a way to build 
a better bilateral relationship. There is a huge amount----
    The Chairman. Could you be more explicit? What were the 
interests? What happened in that regard? What did Maliki see 
as--go ahead.
    Ambassador Ford. In particular, Prime Minister Maliki 
publicly and in private accused the Syrians of being--of 
helping the groups that executed the August 19th bombings in 
Baghdad, the bombings that destroyed the Foreign Ministry and 
the Finance Ministry.
    The Chairman. Did you have any evidence to that effect?
    Ambassador Ford. Mr. Chairman, we have, of course, studied 
it. We have not found a direct link.
    The Chairman. Senator Dodd and I were there and met with 
President Assad a number of years ago, and I have met with him 
since. He has been very clear about his interest in having a 
stable Iraq. And everything that we understand documents what 
you have said. It is in their interest.
    They have a Sunni majority population. And then, of course, 
in Iraq, it is a minority. Their interest is in seeing it 
stable and not having it spill over into their country and so 
forth. So we accept that at face value.
    But what is it now that can be done, in your judgment, to 
rapidly get this back on track? You don't have to turn the 
microphone on and off. You can just leave it on.
    Ambassador Ford. OK. Thank you.
    Senator, the first and most important thing that the Iraqis 
could do--sorry, the Syrians. The first and most important 
thing the Syrians could do is to shut down the remaining 
foreign fighter networks. They have not shut them all down. The 
number of fighters going over the border, we estimate, was 
about 100 per month, say, 2\1/2\ years ago, mid-2007. That 
number has diminished now to about 10. So that is a big 
improvement.
    Part of that improvement probably is less because of a 
Syrian policy decision than because our forces in Iraq and 
Iraqi security forces have had a lot of success taking down 
some of the al-Qaeda networks in places like Baghdad and Mosul. 
But the Syrians have shut down some networks. That is good. But 
they haven't shut them all down. There is more they could and 
should do.
    And frankly, were they to do that, I think the Iraqis would 
notice and would respond. In addition----
    The Chairman. When you say they could and should, that is 
to a certainty that we know those groups are under their 
control and/or within their capacity to shut down?
    Ambassador Ford. We think they have the capacity, Senator.
    In addition, Senator, in terms of the politics of the 
relations between Iraq and Syria, the Syrians promote and 
allow--well, both promote and allow groups, Iraqi groups to 
undertake activities that are destabilizing to the 
constitutional government in Iraq.
    For example, there is a television station in Iraq--sorry, 
in Syria, named Al Rai. It is operated by a real rogue named 
Mishaan al-Jabouri, and it shows pictures of Humvees blowing up 
and attacks on American forces, attacks on Iraqi forces. This 
is not a television station that is broadcasting to Syrian 
audiences, Mr. Chairman. It is broadcasting to Iraqis. It is 
trying to foment violence against our forces and against 
Iraqis, and there is no reason for the Syrians to promote that. 
They have it in their capacity to turn that off.
    There are other things in that vein, Mr. Chairman.
    The Chairman. I had a conversation the other day with 
President Assad when I was in the Middle East, and he mentioned 
the degree to which they have kept their word with respect to 
Lebanon and that Lebanon has been, in fact, relatively quiet 
over the period of the last months since the election and new 
government.
    Can you speak to the Syrian posture vis-a-vis Lebanon now 
and what you see as the stakes for Lebanon in terms of better 
American relations with Syria?
    Ambassador Ford. We are firmly committed, as I said, to 
Lebanese sovereignty and stability. And we have worked quite 
hard to build and strengthen the capacity of Lebanese 
institutions. We would like the Syrians also to cooperate with 
Lebanese Government institutions.
    It is a good step that they opened an Embassy in Beirut. It 
is a good step that they announced during the visit of Prime 
Minister Hariri to Damascus that they would begin the border--
the Syrian-Lebanese border delineation effort.
    The Syrians, in a sense, Mr. Chairman, said that this would 
open a new era of relations. The Hariri visit would open a new 
era of relations between Syria and Lebanon. And that would be 
good. We welcome that, but we would like to see that actually 
implemented on the ground.
    And of course, one of the biggest problems is the 
transshipment of weapons from Syria to armed groups, notably 
Hezbollah, but not limited to Hezbollah, which contravene 
United Nations Security Council resolutions and, frankly, 
undermine the Lebanese state.
    The Chairman. Fair enough. There are obviously some 
questions to pursue with respect to Hezbollah, but my time is 
up.
    Senator Lugar.
    Senator Lugar. Ambassador, United States officials have 
visited Damascus frequently, as we already mentioned, 
throughout 2009 and even into 2010. Furthermore Syrian 
officials have been invited to Washington. The Syrian 
Ambassador in Washington has been meeting regularly with United 
States policymakers. But now the question is about sending you 
to be the Ambassador in Syria.
    Thus far, the American public has seen Syria's response to 
our positive attitudes as belligerent at worst, and dismissive 
at best. And I just inquire: has something occurred to further 
anger the Syrians while all this is going on, and what the 
signs are that a gesture of respect on our part would be 
similarly met?
    You have mentioned that by being in Syria you can express 
directly our policies to the Syrians and the penalties for 
noncompliance and so forth, our calculations, depth, and 
reasoning in formulating the policy. But to some extent, a good 
bit of this has been proceeding without having an ambassador. 
Why would this additional step make a difference, or is there 
something occurring that you perceive in Syrian policy that is 
more promising?
    Ambassador Ford. Senator, I think it is very much in our 
national interests, especially when tensions are rising in the 
region, to have an Ambassador in Syria. It is an important 
country. It has its own interests in places like Iraq--we were 
just talking about Lebanon--and the Middle East. And it has an 
ability also to be helpful or to be unhelpful.
    In those situations, I think sustained dialogue, sustained 
lobbying, if you will, are really useful to make sure that both 
sides understand exactly what the other's thinking is, that 
both sides understand what the other's calculations are. It is 
very hard in countries in the region for an Embassy to go in at 
sort of a medium level and get messages passed up to the top. 
The bad news just doesn't flow upward very well over there.
    There is a lot more we could be doing, frankly, were we to 
have an Ambassador there, both to remind the Syrians of what 
our calculations are and also where their interests best lie. 
These are things in our interest, regardless of how the Syrians 
respond in the short term.
    Senator Lugar. Well, let us say that you are there, and you 
find, as you pointed out in your long statement, that Syria has 
a very large young population that perhaps have different 
views, and might, in due course, be more friendly toward the 
United States. We already have adopted a certain number of 
sanctions against Syria and not with regard necessarily to 
young people, but to older people, too, such as those in the 
business community and otherwise.
    What sort of changes will we need to make, and what sort of 
advice could we anticipate in this committee that you might 
come back and offer in order to really make headway with this 
young population or with the business folks or so forth, you 
would need us to reconsider one thing or another to facilitate 
that activity?
    Ambassador Ford. Yes. I just think it is very important to 
reach out beyond government circles when you are an ambassador. 
Frankly, any position in an embassy, the diplomatic staff, that 
would be part of my job managing the embassy is to make sure we 
are reaching out to all segments of the society.
    A couple of things come to mind, Senator. In the wake of 
the Syrian allegations of an American raid on the Syrian 
border, they shut down our cultural center in Damascus. They 
have allowed the English language teaching center to reopen, 
which is a good step. We welcome that.
    And I understand that, actually attendance at our English 
language courses is quite high. I think young Syrians want to 
learn English; many. And many young Syrians are interested in 
being exposed to different viewpoints.
    There is an American cultural center, which has not yet 
reopened, and that is certainly something that would be on my 
agenda as soon as I arrive. But we also have what we call 
``American corners,'' Senator. These are smaller cultural 
centers placed in things like universities. When I was in 
Algeria, we opened three of them. We have two in Syria right 
now, and I would like to see those reinvigorated.
    And then we will have our contacts with the business 
community, absolutely. The Embassy does now, but the 
possibilities for economic relations are limited because of the 
strong sanctions regime that we have in place now.
    Senator Lugar. Well, as I said, I extend an open invitation 
to you. As you see sanctions which may or may not be helpful, 
if you see openings for engagement, obviously, you have made 
some thoughtful suggestions about the youth, and the American 
corners idea, I think, is superb and one which I have 
introduced a resolution to encourage, especially in those 
places where security considerations have forced them to close 
or restricted access to them. But, please do keep in touch 
because it may be that some back and forth is going to be 
required to get your message out.
    Finally, I think all of us in the Senate and administration 
were really staggered by news of the Syrian nuclear program, 
and this came, first of all, through intelligence sources that 
were closely guarded. Now it became a much more general 
picture. Given our preoccupation with all of this proceeding in 
Iran, suddenly to find out that almost side by side something 
had been occurring in Syria. That was truly significant. And 
that there may have been the same traces of A.Q. Khan, really 
was staggering.
    Now I know you will continue to pursue this issue, as will 
the IAEA and others, but it is something that will not go away 
without there being much more international understanding of 
what the President and the Government of Syria have in mind 
with regard to this program. It has been reported that the 
President hid some information related to the program from many 
of his own officials, but the general dialogue within the 
country about this program was rather limited.
    But I know you understand the seriousness of this, and 
perhaps it constitutes another argument, as you presented, for 
your presence and persistence and for a good staff there to 
join you.
    Thank you very much.
    Ambassador Ford. Thank you, Senator.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman.
    And welcome, Mr. Ambassador, to the committee. These 
hearings obviously perform a dual function, one to pass 
judgment on your qualifications to serve in the post for which 
you have been nominated and, second, to pursue policy questions 
regarding, in this case, bilateral relationships, as well as 
regional relationships.
    And let me just say at the outset how fortunate we are to 
have someone of your background and experience. So the 
questions will be more focused on policy issues than whether or 
not you are qualified for this job. You are eminently 
qualified, and I want to congratulate you.
    I noticed, however, in your resume here, you don't list 
having been in the Peace Corps. And as a former Peace Corps 
Volunteer, is there any particular reason why you are hiding 
that fact?
    Ambassador Ford. No. I think that is a failure of my 
writing up a biography on short notice, Senator. Sorry.
    Senator Dodd. Well, add it on because it is an issue, and I 
am not going to dwell on this particular point. But we have 
only two Peace Corps programs in the Muslim world, in Morocco 
and Jordan. Now there is talk of Indonesia and opening a Peace 
Corps program there.
    And for years, I have pursued the idea in Egypt, where you 
studied----
    Ambassador Ford. Yes.
    Senator Dodd [continuing]. As another likely choice. 
Obviously, Syria is not necessarily on the brink, although I 
have a niece that is going to study there in a few weeks.
    Ambassador Ford. Really?
    Senator Dodd. Yes. She is going to Jordan and then Syria 
and then spending several months in Turkey as well. She is a 
student at Middlebury.
    Ambassador Ford. Oh.
    Senator Dodd. In the language programs there. So it is 
encouraging to me that we have young people in this country 
willing to study this language. You talk about Syrians studying 
English. It is tremendously important we have young Americans, 
as you did years ago, pursue the cultural and linguistic 
abilities in the Arab world as well.
    Ambassador Ford. Absolutely agree.
    Senator Dodd. We need more and more of these students along 
the way.
    Senator Lugar and Senator Kerry have pursued these broad 
range of issues. And Senator Kerry and I had a very interesting 
meeting, I guess, 3 years ago, in December of 2006 with 
President Assad, when we made a visit to the region. I will ask 
consent, Mr. Chairman, if I could just have my opening comments 
be put in the record as well along those lines.
    The Chairman. Without objection.
    [The prepared statement of Senator Dodd follows:]

            Prepared Statement of Hon. Christopher J. Dodd,
                     U.S. Senator From Connecticut

    Mr. Chairman, thank you for holding this hearing. And, Mr. Ford, 
thank you for your service to this country, and for agreeing to take on 
the complex and critical responsibilities of this post.
    We have lacked an ambassador in Syria for far too long. The 
previous administration did not believe that we should talk to 
countries with whom we have a difficult relationship. That policy was 
in no one's best interest, least of all America's.
    The Obama administration, on the other hand, has chosen to put 
diplomacy at the forefront of foreign policy, and there could be no 
better example of their commitment to diplomacy than their selection of 
Robert Ford to be our Ambassador in Damascus.
    While I am hopeful--as are many here, in Syria, and throughout the 
Middle East--at the prospect of a new chapter in the relationship 
between our two countries, I know that change doesn't happen overnight.
    To my understanding, Syria has clamped down on fighters and weapons 
flowing across its borders into Iraq. That's a good start, but more 
needs to be done. I believe that if Syria acts as a responsible 
neighbor, it can have a positive relationship with its neighbor Iraq.
    However, Syria continues to engage in deeply troubling behavior. 
Not only has it failed to establish diplomatic and political relations 
with Lebanon consistent with international norms, Syria also persists 
in supplying weapons and other support to Hezbollah and Hamas. This is 
categorically unacceptable. Meanwhile, Syrian-Israeli peace remains 
elusive, despite the fact that the outlines of an eventual deal appear 
relatively clear to both sides.
    And, of course, the lack of human rights and the weak rule of law 
within Syria's borders, problems which include crackdowns on personal 
freedom and freedom of the press, represent an affront to the 
democratic values we seek to share with all nations.
    These are serious issues. We cannot ignore our serious concerns 
with policies of the Syrian Government, but the strategy of simply 
issuing demands and ultimatums has not worked and is no longer 
operative. What better way to address our concerns and advance our 
interests than to have a capable and competent American Ambassador in 
Damascus, delivering our message to the highest levels of the Syrian 
Government? In my view, this serious and level-headed approach is the 
right way to go. And that new approach begins with Mr. Ford. I welcome 
him to the committee, thank him for his service, and look forward to 
his confirmation.

    Senator Dodd. I have lines of questions. One is, as I 
understand it, and I don't think things have changed much, that 
the Syrians, in terms of their reopening negotiations with the 
Israelis, would like to sort of begin the process where things 
had left off. Whereas, the Israelis, as I understand it, would 
like some preconditions, and understandably so, I might add.
    Can you give us some sense of how you think you might 
square that circle? Because as some have suggested, I think 
Senator Lugar did as well and Senator Kerry, that avenue may 
offer more promise, at least initially here, than the 
relationships between the Israelis and the Palestinians. And I 
think that a breakthrough there could have a very positive 
impact in the region. So give us some sense of how you will 
square that circle, if that is a correct analysis, by the way, 
of the two sides' positions.
    Ambassador Ford. Let me share some thoughts on that, 
Senator Dodd. And also I really applaud your daughter for going 
out----
    Senator Dodd. Niece.
    Ambassador Ford. Your niece for going----
    Senator Dodd. I have a 5-year-old and an 8-year-old. They 
are not quite ready for----
    [Laughter.]
    Ambassador Ford. So with respect an Israel-Syria peace 
agreement, first, as Senator Kerry said, it really would change 
the region. It would be a game-changer. It is very much in 
American interests to have a comprehensive peace settlement in 
the region. My understanding is that the indirect discussions 
between Syria and Israel in 2008, conducted through Turkish 
intermediation, made considerable headway. However, they did 
not, obviously, result in an agreement.
    The Syrians are insistent on the return of the Golan, full 
return of the Golan. On the Israeli side, my understanding is 
that the Israelis want to carefully understand the Syrian 
commitments to what a peace agreement means in terms of normal 
relations and Syria's role in the broader regional stability 
question. And that is a fair question.
    So it is important, therefore, that we find a way, that we 
find a formula to get the Israelis and the Syrians back to 
these negotiations so that we can see how far the Syrian 
Government is willing to go in terms of commitments with 
respect to normalization and regional stability.
    Senator Dodd. Is that something now, that is more of a 
Mitchell portfolio than yours?
    Ambassador Ford. Senator Mitchell and his team have the 
lead. But obviously, our Embassy in Damascus would help and 
coordinate carefully with them.
    Senator Dodd. I tried to find the answer to this question, 
and I should know it, and I apologize for not knowing it. Tell 
me, in Baghdad, who has embassies in Baghdad now within the 
region? Iran has an Embassy there.
    Ambassador Ford. Oh, yes; they do.
    Senator Dodd. Yes. Well, then my point is, and I heard you 
talk about the Iraqi difficulty with the Syrians for the 
reasons you outlined, and yet, given the history of Iran and 
Iraq, given the production of weapons and the like, it seems to 
be somewhat of an inconsistency here, given Iranian involvement 
in undermining Iraqi stability. Lay that out for me a little 
bit as to how this plays out.
    Ambassador Ford. Yes. Let me give you my read on that, 
Senator Dodd. And I am going to bring in the Syrian angle.
    The Iranians in Iraq certainly have a very active Embassy, 
frankly. Their Ambassador is rather notorious there. In 
addition, they have provided assistance, weaponry, and other 
resources to Shia extremist militias. They continue to do that, 
and they exert genuine direct pressure on some of the Iraqi 
political parties. They actually get quite involved in it.
    Their goal, as best I can tell, Senator, is to have a 
government which is largely dominated by one particular sect, 
at least at the senior levels. I do not think, frankly, that 
the Syrians share that objective. I don't think their interest, 
as they perceive it, is the same.
    The Iraqis that are in Damascus, the ones receiving the 
support that I mentioned, are absolutely not Shia. They are 
Sunni and they are secular, for the most part. They are not 
Islamist. And in addition, the Syrian interest seems to be for 
a stronger government that will ensure the unity of the state. 
They are not enamored with the idea of a more decentralized 
federal Iraq.
    And so, the two countries, Iran and Syria, on this issue of 
Iraq, I think, do not share an eye-to-eye agreement on what is 
best for Iraq. Now, of course, for the United States, we want 
Iraqis to make these decisions, and we are very encouraged by 
the elections. This was the fifth election that has been held 
in Iraq since the fall of the Saddam regime. I am counting a 
referendum on the constitution in that five.
    The turnout was good, 62 percent, according to the data. 
The count is going slow, and I think those of us that are 
really curious about how it is going to go are looking at the 
news reports every day and waiting to see more figures. I think 
the Iraqis have come a long way from when I first went there in 
2003. They have a long way to go. But in terms of developing a 
more democratic political culture, they have made real strides.
    And what we would like to see now is for Syria to under-
stand that government is not going anywhere. The 
constitutionally elected Government of Iraq is going to stay. 
It is not going to be overthrown.
    And so, they have an interest in shutting down foreign 
fighters. They have an interest in not helping groups trying to 
undermine the state. Instead, Syria has a real interest in 
consolidating relations with Iraq, and these groups that they 
allow freedom to run around aggravate relations. And so, they 
don't have an interest in that.
    Senator Dodd. Well, thank you very much. And again, thank 
you for your service. And I commend the Obama administration 
for deciding to send an Ambassador and reopen the diplomatic 
front. So wish you the very best.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Dodd.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    I appreciate the time you gave me yesterday on the phone, 
Mr. Ford. Thank you very much.
    I really have two questions, one on what we were just 
talking about. Is there not still a large number of Iraqi 
refugees in Syria?
    Ambassador Ford. Senator, the numbers vary. The Syrian 
Government has said that the number is up around a million. I 
have seen recent figures from the United Nations High 
Commission on Refugees, which says that the number of 
registered Iraqi refugees in Syria is about 250,000. That 
estimate is probably too low. It would be more than 250,000, 
but it could be in the range 400,000, 500,000.
    I have to say on this, Senator, if you permit me, in some 
ways the Syrian Government has been very helpful on the Iraqi 
refugee issue. They have kept their border open so that people 
fleeing because they are worried about getting murdered and 
killed at home have been able to take refuge in Syria. In 
particular, a number of Iraqi Christians, the Iraqi Christian 
community from northwestern Iraq, Ninawa province, have gone 
into Syria.
    And they have provided things, some assistance to the 
refugees there at Syrian Government expense. And more recently, 
they said that Iraqi refugees would have permission to work, 
which is a new decision and will help the Iraqi refugees there.
    May I make one last comment on this, Senator? Again, 
speaking personally, we have a real moral obligation to help 
the Iraqi refugees, we have been so involved in Iraq.
    And the Congress and the American people have responded 
very generously, over $300 million in the last year's budget to 
help Iraqi refugees.
    And we have ongoing programs in Syria. In fact, Syria last 
year was the destination from which the largest number of 
refugees came to the United States, Iraqi refugees came to the 
United States out of Iraq through Syria. There is more we would 
like them to do. Senator Kerry mentioned about the--or, no, 
Senator Lugar, I think, mentioned about the circuit writers 
from the Homeland Security. We would like to see more visas 
issued. It would help our processing, and they could issue more 
authorizations for NGOs to work with those refugees.
    So there is work to be done there, too, but I think we can 
make progress on that, Senator.
    Senator Isakson. Given the relative stability that you 
referred to with the Iraqi Government now being in place, 
conducting elections, what is the reticence for refugees to 
stay in Syria and not come back to Iraq?
    Ambassador Ford. We have done pretty detailed surveys of 
that, Senator, and the United Nations has as well. There are 
still security concerns among the refugee populations in places 
like Syria and Jordan. As the security situation in Iraq 
gradually improves, we think we will see more refugees going 
back home.
    In the past year, calendar year 2009 saw total number from 
Syria, Jordan, and other countries going back into Iraq around 
200,000, which is a lot higher than a couple of years ago. The 
second issue is: will they find jobs when they get back to 
Iraq? And absolutely, the Iraqi economy needs to start 
generating more job growth. That will be a big issue for the 
new government.
    Senator Isakson. On the question of Israeli-Syrian talks, 
is it correct that Syria was a conduit for rockets getting into 
Lebanon that were ultimately fired against the Israelis?
    Ambassador Ford. That has been true in the past, Senator. 
Yes.
    Senator Isakson. Have the Syrians in any way renounced the 
Hezbollah or renounced what they did in that conflict?
    Ambassador Ford. No. And in fact, just a couple of weeks 
ago, they hosted the leader of Hezbollah to a dinner with 
Iranian President Ahmadinejad and the Syrian President Bashar 
al-Assad, a three-way dinner, which was widely publicized 
throughout the Middle East.
    Senator Isakson. I took it that that was almost a surrogate 
conflict between Iran and Israel, not between Lebanon and 
Israel. Is that a fair statement? That may not be a fair 
question to ask you, but that was my impression.
    Ambassador Ford. What I would say on that, Senator, is 
unquestionably Iran promotes Hezbollah, as does Syria, as a 
means of pressuring Israel. I think--but the Hezbollah fighters 
themselves are dedicated. They are serious terrorists, and they 
mean to do harm to Israel.
    Senator Isakson. Well, you have a big job ahead of you in a 
very dangerous part of the world, and I wish you the best of 
luck because improvement is what we need, and we need it 
desperately.
    Thank you.
    The Chairman. Thank you very much, Senator.
    Senator Casey.
    Senator Casey. Mr. Ambassador, thank you very much, and we 
are grateful that you are willing to take on yet another tough 
assignment. So we appreciate that, especially at this time in 
our history, we want to commend your service.
    Ambassador Ford. Thank you.
    Senator Casey. I wanted to talk about at least two areas. 
One is with regard to Syria's nuclear intentions or ambitions, 
how you assess those ambitions and, second, the related 
question about their failure to cooperate with inquiries from 
the IAEA. And then, I will move back to some of the questions 
that Senator Isakson raised about their support giving asylum 
to both Hezbollah and support for Hamas.
    But first, on the nuclear question, how do you assess those 
intentions or ambitions and, second, on the IAEA?
    Ambassador Ford. Senator Casey, thank you.
    We have ourselves a lot of concerns about this, as I said, 
big concerns. Two things I would especially emphasize. No. 1, 
Syria is a signatory to the Nuclear Non-Proliferation Treaty. 
It is incumbent upon them on their signature on the treaty for 
them to cooperate fully with the IAEA when it wants to do 
inspections. And so, without speculating about what the Syrian 
intentions are, I would just say it is incumbent on the Syrians 
to cooperate.
    In addition, I would also add the Syrians perhaps want a 
civil nuclear energy program. I don't know. But given that 
there is an ongoing IAEA investigation into the Syrian nuclear 
program, we do not think it would be appropriate for any other 
country to cooperate now with the Syrians on a nuclear energy 
program while this investigation is ongoing. First, the 
investigation needs to be resolved.
    Senator Casey. Let me just follow up on part of that. Let 
me ask it this way. I wouldn't want you to speculate either.
    Let me just ask you, fundamentally, is there anything in 
the public record that you could point to as evidence that 
their intention is other than peaceful or civilian nuclear in 
intention, as opposed to something that would be clear from the 
public record that it is an attempt to weaponize or to have 
military use of their nuclear program?
    Ambassador Ford. There is certainly press speculation, 
Senator Casey. I am sure you have seen it, as I have, with 
respect to the facility at al-Kibar, the one which the Israelis 
destroyed.
    I think it is, therefore, all the more in Syria's interest 
to cooperate with the IAEA on this inspection. If the program 
was as they said, then the investigation would bear those facts 
out. Not cooperating actually raises more questions, and 
therefore, the Syrians have an interest in terms of their own 
credibility with the international community in letting the 
inspectors do what they need to do.
    Senator Casey. With regard to Hezbollah and I guess also 
with regard to Hamas, but especially Hezbollah, obviously, the 
Syrians would be enhancing the likelihood that the Middle East, 
some of the conflicts in the Middle East could be moved forward 
or I should say resolution of conflicts in the Middle East 
could move forward if they were willing to change their 
attitude and their willingness to give asylum to Hezbollah and 
support.
    I am asking you what is your intention with regard to the 
work that you have to do on those questions? I am hoping that 
you would raise that, and I think you should. I guess I want to 
get a sense of your strategy with regard to approaching the 
Syrians on the question of Hezbollah.
    Ambassador Ford. A couple of things on that, Senator. 
First, the Syrians themselves would like to see a change in the 
sanctions that we apply to them. It is going to be impossible 
to do that while they support--some of the sanctions are a 
direct result of their support to terrorist groups like 
Hezbollah and Hamas. We can't change those sanctions and the 
restrictions that they bring about until the Syrians change 
their behavior. We have to be very clear with them about that.
    Second, it is important now when we are trying to restart 
negotiations between Israel and the Palestinians that the 
Palestinians themselves unify behind the idea of negotiations 
and move forward. I think it would be very helpful if Syria 
would press and use its influence with hard-line Palestinian 
groups--terrorist groups like Hamas, Popular Front for the 
Liberation of Palestine--to back these efforts and to let the 
negotiations, if we can get them started, get them to move 
forward again. The Syrians should be helpful on that.
    With respect to Lebanon and Hezbollah, Senator, this is 
really a serious problem. It is a serious problem. And it is 
not a new Syrian policy, dates back 20, 25 years. It is 
something I intend to raise regularly because were a conflict 
to break out again, and we had a really bad one in 2006, very 
serious, A, Syria could be dragged into it even if it doesn't 
intend to at the beginning, the risk of miscalculation.
    And second, it does not help their credibility with the 
broader international community to be seen as one of the 
parties facilitating that kind of fighting, that kind of 
conflict. They have an interest themselves in being helpful on 
these things. And one of my jobs is going to be to explain to 
them where their interests can be better served.
    Senator Casey. Thanks very much.
    The Chairman. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    And Ambassador, I would like to give a big congratulations 
to this administration for having matched someone with your 
background and your experience into this job. And I wish you 
all the best.
    Ambassador Ford. Thank you.
    Senator Webb. I would like to follow on something that 
began with Senator Dodd. A number of people have picked up on 
this and your own responses as well with respect to the 
relationship between Syria and Iran, but also to get some of 
your thoughts on the situation with respect to China and Syria.
    It has been said many times that Syria and Iran are not 
really natural allies in terms of history and culture and these 
sorts of things, and actually, some of your comments with 
respect to the situation in Iraq illuminate that. And it's also 
a concern for a lot of people, including myself, that China has 
taken advantage in many different places around the world of 
opportunities that have existed because of American policies 
with respect to sanctions or rigorous standards in places like 
Iran, Syria, Burma, Cambodia, and a number of other places.
    So what I would really like to hear from you today is your 
thoughts with respect to those two relationships in Syria and 
to the extent that the relationships between Syria and those 
two countries have been empowered by our sanctions and also to 
the extent to which perhaps they have come about simply because 
of the recalcitrance of the Syrian Government to date. In other 
words, where can we go from here on both of those?
    Ambassador Ford. Thank you, Senator Webb.
    Let me say a couple more things about the relationship 
between Iran and Syria, which this is a relationship that is 
troubling, frankly. For 16 years, going back to Syrian 
President Hafez al-Assad, the Syrian Government has said that a 
peace agreement--a peace agreement with Israel, including 
normalized relations, could be in Syrians' interest. I have 
never heard President Ahmadinejad of Iran say that.
    And so, it is not clear where exactly that relationship, 
the Syrian-Iran relationship with respect to this key question 
in the Middle East, how they would handle that stress. They 
perceive a different end state.
    There may be opportunities there, Senator. I don't know. As 
I said, I don't promise fast results in any of this. This is a 
tough one. But I think there are certainly questions there to 
explore, and I think Senator Mitchell has been exploring it 
with his team, and they think there are prospects to work on, 
that there are things that we can try, we can work on.
    With respect to the relationship between Syria and China, I 
have to confess, Senator, I am just not at all well-versed on 
that. And with your permission, could I take that as a question 
for the record, and I will get back to you promptly?
    Senator Webb. I would be interested in your thoughts. Maybe 
even after you assume your position and have an opportunity to 
view it from that perspective. It is a wide-ranging concern 
that people who are examining our own national policies, I 
think, ought to take into account when we are attempting to 
improve bilateral relations in these places where the 
relationships have calcified over the years.
    Again, I would like also to say here that I very much 
appreciate the precision of the answers that you have given to 
all of these questions today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Kaufman, I know you have just arrived. But we 
welcome your participation.
    Senator Kaufman. Thank you, Mr. Chairman. Thank you.
    I just want to ask questions. I know Senator Webb just 
asked you about relations with Iran. I just kind of get your 
feel on Syria's relations with a number of different countries, 
if we can just kind of go down the list of the usual suspects. 
The first one would be Iraq.
    Ambassador Ford. It is a--to put it short, it is a very 
problematic relationship, but one where, frankly, we should be 
able to persuade them to be much more helpful. They have a real 
interest, both economically and in terms of their own security, 
to have a better relationship with Iraq.
    The Lebanon situation, as I have described, they have taken 
some good steps. But they need to take more steps. They need, 
in a sense, to implement this era of new relations, which 
President Bashar al-Assad talked about when Lebanese Prime 
Minister Hariri visited Damascus in December. And in 
particular, Syrian transshipments of weapons to groups, 
terrorist groups like Hezbollah and Palestinian radicals.
    Relations with Jordan, I think, are relatively good. The 
two countries just removed exit taxes. When you depart the 
country, you don't have to pay an exit tax any longer. So they 
are trying to promote movement of people across the borders.
    Last, Senator, I should mention because it is important in 
region's politics. People pay a lot of attention to this, the 
relationship between Syria and Saudi Arabia. For a long time, 
these relations were quite strained. In recent years, the 
relations have gotten much better. President Bashar al-Assad 
visited Riyadh recently, and they seemed to be talking more and 
trying to coordinate more.
    I think in particular they are talking to the Saudis about 
how to approach the next Iraqi Government, and I think they 
also share some concerns in other places, such as Yemen and the 
Houthi rebellion there.
    Senator Kaufman. How about Turkey?
    Ambassador Ford. Yes, Turkey, that is a relationship which 
the Syrians have turned around dramatically. The relations 
between Syria and Turkey used to be quite difficult. The 
Syrians ended their support for the PKK, it was July. And in 
recent years and months, the relations have become quite warm. 
In fact, the Turkish Foreign Minister was just in Syria last 
week, and the Syrians would like to see Turkey play a role 
again as an intermediary with Israel. I am not sure if that 
would be acceptable to the Israeli Government right now.
    Senator Kaufman. Yes. When I met with President Assad, he 
said that Turkey was their best friend, an even better friend 
than Iran. How would you analyze that?
    Ambassador Ford. I think the Syrians and the Turks at least 
have a vision of how--if you take the Syrian statements that 
they support the idea of a peace agreement with Israel, that a 
peace agreement could be in their interest, then you can see 
how a Turkish vision and a Syrian vision line up in a way that, 
frankly, I do not see with the Iranians.
    So, and in addition, Turkish interests in Iraq maintaining 
unity of the state where all of the ethnic and sectarian 
components of the society feel safe and feel they have a role 
there, I think also fits in with Syrian interests probably more 
so than Iran's, frankly.
    Senator Kaufman. And you know, the dust-up between 
President Assad and Prime Minister Maliki over the explosion in 
Baghdad, that seemed to me larger than I would have expected. 
Is that your feeling, or how do you analyze that?
    Ambassador Ford. We feel very deeply the pain that the 
Iraqis have suffered through all of this terrorism and the 
countless lives of Iraqis that have been lost. The violence in 
Iraq is a lot--is much diminished from what it used to be, 
dramatically diminished, as you saw when you came out to 
Baghdad. But it is still a constant problem, and it is a 
constant threat.
    The reaction of Prime Minister Maliki, therefore, the anger 
and the anxiousness to put an end to those kinds of car bomb 
attacks is entirely understandable, entirely understandable. 
However, we need to work together--we, the United States, and 
the Iraqis, who have the lead now on this--to take down the 
remaining networks.
    We have come a long way. We have still some way to go, and 
we are working it very hard, Senator. And the Syrians, by 
shutting down the remaining foreign fighter networks, could 
help.
    Senator Kaufman. This is a question I ask every Ambassador. 
So what do you do about freedom of the press and freedom of the 
Internet in Syria? I mean, as Ambassador, what are the things 
that you can kind of do to further that?
    Ambassador Ford. Thank you for that. I feel very strongly 
about freedom of the press. It was a big issue for me when I 
was Ambassador in Algeria. I don't see how these societies 
evolve peacefully without freedom of the press. It is just 
essential.
    A couple of things. We have included in the items which 
have a waiver from sanctions so that we can export them to 
Syria goods that are related to information technology and the 
Internet. We think, actually, the Internet can play a very 
positive role not just in Syria, but in countries around the 
world. And Secretary Clinton has spoken very forcefully about 
this, and we will implement that part of the policy, 
absolutely, in Syria.
    With respect to other freedom of the press issues, Senator, 
I would hope that we would have occasions to bring Syrian 
journalists to the United States on things like international 
visitor programs. We have done so in the past.
    In a country where they have no tradition of freedom of the 
press and where the government does not respect it, I do not 
think we will get change overnight from one day to the next. 
This will be a thing where we will just push it and look for 
openings here and there and find ways to promote it, whether 
working with individual journalists or talking about human 
rights and press freedom policies with senior officials.
    Senator Kaufman. Good luck. I mean, I think there are some 
real opportunities there. I really do. And I think that 
having--reinstating the Ambassador was, in my opinion, a very, 
very good decision, and they couldn't have picked a better 
person to go there. So best of luck.
    Ambassador Ford. Thank you.
    Senator Kaufman. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Kaufman.
    I heard you talking about the foreign fighters issue and 
Syria. Did you talk about Hezbollah also?
    Would you mind discussing the flow of arms and weapons and 
now bigger missiles into Lebanon and the arming of Hezbollah? 
And I wonder if you would speak to whether you think Syria 
could, in fact, take steps that would curtail that, or whether 
that is under the table and out of their control?
    Ambassador Ford. Senator, we feel very strongly--I want to 
underline this point. We feel very strongly that Syria could 
take steps, and it should take steps. Hezbollah has rearmed 
since 2006, and it does present a real threat to Israel, and it 
presents a real threat to regional stability. And I do not see 
how instability in the region serves Syrian interests.
    With respect to the nature of the weaponry, absolutely it 
is destabilizing if Hezbollah has rockets that can hit farther 
into Israel. It complicates everyone's calculations and raises 
the risk of miscalculations and the risk of conflict. It is 
destabilizing.
    The Chairman. Is there any issue that you could contemplate 
coming across in the context of being Ambassador to Syria that 
you would have to recuse yourself from? Have you so notified 
anybody in the State Department?
    Ambassador Ford. I can't think of anything, Senator; no.
    The Chairman. And is there any potential conflict of 
interest in any holding or otherwise that you have?
    Ambassador Ford. No. No, no, no.
    The Chairman. Well, Mr. Ambassador, we are grateful to you 
for submitting yourself to yet another posting. This is an 
important one, as they all have been. But I think this 
presents, as I said earlier, some particular opportunities, and 
we wish you well.
    I am confident that the committee will be able to move your 
nomination rapidly, and we certainly look forward to trying to 
do that before we break for the Easter recess. So thanks very 
much for being here.
    Are there any further questions, Senator Lugar? Additional 
questions?
    If not, we wish you well, and we stand adjourned.
    Thank you.
    Ambassador Ford. Thank you.
    [Whereupon, at 10:45 a.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


    Responses of Hon. Robert Stephen Ford to Questions Submitted by
                         Senator John F. Kerry

    Question. Can you describe, in practical terms, how the presence of 
a full-time ambassador in Damascus will expand our ability to engage 
with the Syrian Government?

    Answer. Since the withdrawal of Ambassador Margaret Scobey in 2005, 
the Syrian Government has denied lower-level U.S. Embassy officers 
access to ministerial-level or higher Syrian officials. Consequently, 
we have only been able to speak directly to Foreign Minister Muallim or 
President Asad on those occasions when senior American delegations have 
visited Damascus, or on the margins of multilateral summits. 
Additionally, the Syrian Government has restricted Embassy contact with 
working-level government officials, academics, civil society/NGOs, and 
has officially discouraged private Syrians from participating in 
Embassy outreach programs. Finally, the Syrian Government has 
restricted the ability of working-level U.S. officials to obtain visas 
to travel to Syria for temporary duty, although this situation has 
improved over the last year.
    If confirmed, I would expect to have access and regular 
communication with the highest levels of the Syrian Government. I would 
also expect that our Embassy operations would be fully restored so that 
we can function as any other U.S. Embassy around the world--with robust 
outreach programs, more routine working-level contacts in the Syrian 
Government, and routine support from temporary staff, as necessary.

    Question. On March 16, 2009, Lebanon opened up an Embassy in 
Damascus. Both countries have taken important steps toward normalizing 
relations. Demarcating borders, however, remains a contentious and 
challenging issue with broader security implications. What specific 
steps has Lebanon taken to demarcate borders? What steps has Syria 
taken? What remains to be done? How, if at all, has the administration 
encouraged progress on this issue?

    Answer. We are pleased to see both Lebanon and Syria working to 
normalize their bilateral relations. While the exchange of ambassadors 
last year was an important first step, much work remains to be done, 
especially in terms of border security as outlined in Security Council 
Resolution 1701. Cross-border smuggling--a complex security, political 
and socioeconomic issue--remains a priority area of concern in our 
bilateral discussions with both Lebanon and Syria, particularly as it 
pertains to the transshipment of weapons to Hezbollah and Palestinian 
extremist groups in Lebanon. The demarcation of the Syrian-Lebanese 
border, as called for in Security Council Resolutions 1680 and 1559, is 
a crucial step in this process.
    Lebanese Prime Minister Hariri has pledged to make border security 
a priority for his government and recently appointed Minister of State 
Ogassapian to develop a border control strategy, which will be released 
in the coming weeks. We plan to continue working closely with the 
Lebanese Government and with the U.N. Special Coordinator for Lebanon 
(UNSCOL) Michael Williams in addressing how to best target the United 
States robust assistance program to provide the Lebanese with the 
resources needed to meet border security priorities. Additionally, the 
Lebanese Government has affirmed its commitment to extending the Common 
Border Force (CBF), composed of the Lebanese Armed Forces, Internal 
Security Forces, Customs Service and Surete General, to the eastern 
border. The CBF and the donor community are actively engaged in 
identifying the operational strategy and resource requirements 
necessary to expand eastward. Lebanon also has appointed the Secretary 
General of Lebanon's Ministry of Foreign Affairs as the lead 
interlocutor on border delineation with Syria.
    During Prime Minister Hariri's December 2009 visit to Damascus, 
President Asad announced Syria's support for a bilateral Syrian-
Lebanese border committee to begin its work. Lebanon has already 
appointed its members to the committee and is ready to commence 
discussions. Unfortunately, Syria thus far has failed to reciprocate.
    We will continue to stress the need for progress on this issue in 
our high-level bilateral meetings and in multilateral fora, such as the 
United Nations, and maintain our close working relationship with both 
UNSCOL Williams and the U.N. Special Envoy for Implementation of 
Resolution 1559, Terje Roed Larsen. We also will continue to press 
Prime Minister Hariri and President Sleiman to make border security a 
priority and encourage them to raise this in their dialogue with Syrian 
counterparts.

    Question. Syria continues to chafe under U.S. sanctions. You spoke 
at the hearing about the constraints on easing sanctions.

  <bullet> To what extent could these sanctions be calibrated, either 
        strengthened or reduced, as circumstances warrant in response 
        to Syrian behavior, without congressional notification or 
        additional congressional authorities? To what extent would 
        congressional notification or additional congressional 
        authorities be required?

    Answer. The Syria Accountability and Lebanese Sovereignty 
Restoration Act (SAA) provides the Executive with the authority to 
waive sanctions as may be required for national security, which would 
require congressional notification. The administration could also issue 
additional executive orders strengthening sanctions or withdrawing 
waivers in case Syria fails to meet its commitments, which would not 
require congressional notification. It would be premature to make 
predictions regarding any modification of sanctions, but as noted in my 
testimony, we are looking for concrete Syrian steps that address our 
issues of concern.

    Question. Is the administration considering the review or 
modification of Executive Order 13338, and other existing executive 
orders pertaining to Syria, or the issuance of new executive orders?

    Answer. The administration is continuously reviewing existing 
executive orders to ensure they remain appropriate and accurately 
reflect the political situation on the ground. So far, Syria has not 
made sufficient progress on any area of U.S. concern to merit a 
modification of E.O. 13338. We want to see changes in Syrian behavior 
before we consider modifying E.O. 13338. There are, to my knowledge, no 
new executive orders currently under consideration.

    Question. The Syrians have made known to me their concerns about 
the safety of their aging civil aviation fleet. Would any potential 
steps that might be taken to address these concerns require either 
congressional notification or additional congressional authorities?

    Answer. Currently, there is one existing waiver to the sanctions 
that addresses the safety of civil aviation in Syria--the waiver for 
spare parts and components relating to safety-of-flight. At some point, 
the age of Syria's civil aviation fleet may create safety concerns that 
cannot be addressed by spare parts alone. There may also be a policy 
imperative for the U.S. to license the sale or lease of newer aircraft 
to Syria. In either case, the administration would need to exercise its 
authority codified in the SAA to create an additional waiver to license 
the sale or lease of an entire aircraft, which would require 
congressional notification.

    Question. The situation of Iraqi refugees in Syria is likely to be 
protracted for many years. What are the key priorities for the United 
States with respect to Iraqi refugees in Syria? How will the United 
States work with Syria to address these priorities?

    Answer. President Obama said in his speech on February 27, 2009, at 
Camp LeJeune that, ``America has a strategic interest--and a moral 
responsibility'' to act on behalf of Iraqi refugees. The safety and 
well-being of the refugees is of paramount concern to us, and we 
commend the Syrian Government and people for their generosity in 
allowing Iraqi refugees access to education and health care. At the 
same time, Iraqis in Syria face diminishing financial resources, 
uncertain legal status, and cannot legally work. Many do not plan to 
return to Iraq in the near future. We are resolute that no Iraqi 
refugees should face forced repatriation. If confirmed, I plan to work 
with the Syrian Government to improve living conditions for Iraqis, 
which would include identifying ways that Iraqis could provide for 
their own most basic needs. I will also encourage the Syrian Government 
to grant more NGOs permission to operate inside Syria to provide 
assistance to this vulnerable population. Finally, I will seek 
continued Syrian cooperation in issuing visas on a regular basis to our 
DHS Immigration Officers so they may interview those Iraqis who are 
eligible for resettlement consideration in the United States.

    Question. While preparing the ground for return of refugees and 
assisting both returning refugees and internally displaced rests on the 
shoulders of the Iraqi Government, how will you use your position in 
Damascus to help the United States influence and pressure the 
Government of Iraq with respect to this population?

    Answer. Beginning in the summer of 2010, Embassy Damascus will have 
a new refugee coordinator position whose work will be directed by PRM. 
She will be in regular contact with her counterparts in the refugee 
coordinator office at Embassy Baghdad, and will work with UNHCR and 
refugee-focused NGOs in Syria. The Damascus-based coordinator can 
highlight immediate needs where, for example, the Iraqi Government 
could provide funding, such as for heating oil in the next winter. The 
Damascus-based coordinator could also try to shape the Syrian 
Government's approaches to the international community and the Iraqi 
Government about the needs of the Iraqi refugee population in Syria. At 
the same time, while U.S. policy on Iraq is formulated in Washington in 
close coordination with our mission in Baghdad, I and other Chiefs of 
Mission in countries hosting refugees will contribute to that process 
with our reports and recommendations from the field.

    Question. Widespread reports tell of Iraqi women being forced to 
prostitute themselves in Syria due to their lack of employment and 
ability to support themselves and their families. What can the United 
States do to assist these vulnerable women?

    Answer. These reports deeply concern us. The administration 
provides significant funding to international organizations and NGOs 
supporting Iraqi refugees, including those residing in Syria. In FY09, 
the administration contributed $387 million in assistance to Iraqi 
refugees, internally displaced, and conflict victims. In Syria, our 
contributions are used to provide basic assistance to Iraqi refugees, 
including education support, health care, food, and cash assistance for 
the most vulnerable--specifically women and children. If confirmed, I 
will press the Syrian Government to allow Iraqi refugees to engage in 
legal activities to provide for their most basic needs, and to 
rigorously enforce its new law criminalizing trafficking in persons. 
Standing up more targeted assistance programs with UNHCR and NGOs may 
also be possible, but we will need Syrian Government permission to 
expand the number of NGOs working with the refugee population.

    Question. Recently, the Department of Homeland Security expressed 
concern that it may not meet its resettlement target for Iraqi refugees 
in Syria because of long delays in processing of Syrian visas for U.S. 
and NGO representatives. How will the United States address this 
problem with Syrian authorities?

    Answer. PRM's Assistant Secretary Eric Schwartz raised this problem 
with Syrian Vice Foreign Minister Faysal Miqdad, who oversees the Iraqi 
refugee portfolio, during his visit to Iraq and Syria in November. 
Under Secretary William Burns addressed it again with Miqdad in 
February 2010. If confirmed, I will make the issuance of Syrian visas 
for DHS immigration officers a major priority. I will also work with 
DHS to ensure their personnel assignment policies have sufficient 
flexibility to accommodate the work needed to meet our resettlement 
goals for Syria.

    Question. What is the United States policy toward the Hariri 
Tribunal?

    Answer. The Special Tribunal for Lebanon is a crucial element in 
the effort to end impunity for political assassinations in Lebanon and 
the United States support for the Tribunal remains unwavering. We have 
made clear that no ``grand bargain'' over the Tribunal will be made 
with Syria. The Tribunal is not a political bargaining chip, and no 
deals will be made at the expense of justice. As U.N. Secretary General 
Ban Ki-moon has affirmed, the Tribunal process is irreversible. As 
evidence of our continued commitment to promoting justice in Lebanon, 
the United States has contributed $20 million for the first 2 years of 
the Tribunal's operations and expects to remain a significant 
contributor going forward. Prosecutor Bellemare and his staff are 
conducting professional, methodical work and we have every expectation 
they will accomplish their goals.

    Question. What role will the promotion of democracy, civil society, 
and human rights play in your role as Ambassador to Syria? Will you 
commit to raising high-profile human-rights cases directly with the 
Syrian leadership?

    Answer. Human rights issues remain a priority for the Department of 
State and will be a focus of my work in Syria, if confirmed. The path 
to democracy in Syria must begin with a change in political culture 
that includes tolerance for dissent and a respect for basic political 
rights. The development of the nascent civil society that exists there 
is a necessary precondition to such an advance.
    If confirmed, I would take three simultaneous approaches on human 
rights issues. First, in private, I would raise individual cases with 
the Syrian authorities, especially those that have generated 
international attention with NGOs like Amnesty International, Human 
Rights Watch and the Committee to Protect Journalists. The Syrians need 
to understand that as they try to promote a ``new Syria'' their human 
rights record detracts from their credibility. Second, I would 
coordinate with and seek to persuade other governments and the United 
Nations to raise human rights cases with the Syrians, so that the 
authorities in Damascus understand that this is not merely an American/
NGO-inspired campaign against Syria. Finally, where it does not 
endanger Syrian activists, I would like to meet them myself to 
demonstrate our high-level support or have an embassy officer meet 
them. This will be easier to do with activists who work, for example, 
with women's rights. Occasionally, we may use public events to 
highlight our concerns. For example, a Syrian woman finally obtained 
Syrian Government approval to attend a ceremony in Washington earlier 
this month as one of the winners of the State Department's 
International Women of Courage Award, an event attended by both the 
Secretary of State and First Lady Michelle Obama.

    Question. Russia has reportedly considered selling military 
equipment to Syria, including the MI-24D helicopter, and modernized its 
naval bases there. Could you discuss the extent of Russian military 
cooperation with Syria, America's posture toward these developments, 
and their impact on the American-Syrian bilateral relationship?

    Answer. Russia has a long history of military relations with Syria 
dating from the cold war that continues with arms sales and a Russian 
naval presence in the port of Tartous. In recent years, Russia 
cancelled a significant Syrian debt owed for arms sales, which was a 
burden on the Syrian economy. The U.S. maintains a watchful eye on any 
Russian military sales to Syria, and would strongly oppose the sale of 
any weapons that would significantly increase Syria's offensive 
military capabilities.

    Question. Israeli soldier Guy Hever has been missing since August 
17, 1997. He was last seen near the Israeli-Syrian border heading east. 
In 2007 an organization called ``Resistance Committees for the 
Liberation of the Golan Heights'' claimed to be holding Hever in Syria. 
Will you raise the case of Guy Hever with Syrian authorities?

    Answer. One of the results of not having had a U.S. Ambassador in 
Syria in several years is that many humanitarian cases, such as the 
parental abduction of American citizen children or missing American 
students, as well as the case of Guy Hever, have not been presented 
consistently to the highest levels of the Syrian Government. If 
confirmed, I will seek an appropriate opportunity to encourage the 
Syrian authorities to share any information they may have on Guy Hever.
                                 ______
                                 

    Responses of Hon. Robert Stephen Ford to Questions Submitted by
                        Senator Richard G. Lugar

    Question. We have some very close friends in the region that are 
looking at this move carefully. They look at Syria's sponsorship of 
Hezbollah and Hamas as inexcusable and as direct threats to their own 
security. And you know better than anyone the reasons the Maliki 
government bears a heavy grudge toward Syria.

  <bullet> Do you see any signs that the Syrian Government is seeking 
        to change the conditions that so deeply affect these 
        relationships?

    Answer. Syrian President Asad at the conclusion of Lebanese Prime 
Minister Hariri's visit in December 2009 to Damascus stated that the 
Hariri visit marked the opening of a new era in Syrian-Lebanese 
relations. Syria has taken several steps to normalize its relationship 
with Lebanon. It opened an embassy in Beirut for the first time and 
sent an ambassador. Syria also announced its intention to begin 
technical meetings to delineate the border between Lebanon and Syria, 
and we are now awaiting progress on implementation of this pledge. 
However, Syria has not halted transshipments of weapons to terrorist 
groups like Hezbollah and Palestinian extremists based in Lebanon. As 
Ambassador, I would caution the Syrians that they are playing a risky 
game that undercuts their credibility both with the Lebanese Government 
and with potential Israeli negotiating partners.
    On Iraq, the Syrians have received various Iraqi politicians from 
different factions that hope to field the next Iraqi Prime Minister. 
Ayad Allawi has visited Syria several times and said better relations 
with Syria are possible. Ammar al-Hakim (of the Shia Islamic Supreme 
Council of Iraqi) visited Damascus in December and said he had had good 
meetings, as did Vice President and Presidential hopeful Tariq al-
Hashimi (Sunni Arab) who visited in early March. Moreover, Ezzet 
Shahbandar (a Shia secularist who ran with Maliki's own election 
coalition) visited Damascus earlier last week. The Syrians probably 
hope that Nouri al-Maliki will not return as Prime Minister, given past 
animosities. The Syrian authorities, however, are positioning 
themselves to be able to work with both Shia and Sunni political 
leaders as the Iraqis start standing up their next government. The 
speed at which bilateral relations improve depends above all on what 
the Syrian Government does with respect to Iraqi Baathist and Islamist 
rejectionists based in Damascus as well as what Damascus does with 
respect to the remaining foreign fighter networks still operating in 
Syria. If confirmed, very early in my tenure I would raise Syria's 
approach to Iraq, highlighting the potential economic gains and the 
minimal cost to Syria of shutting down the remaining fighter networks 
and ending Syrian support to Iraqi rejectionists.

    Question. What effects have U.S. sanctions and administration 
executive orders had on Syria in recent years? What changes in policy 
have sanctions produced?

    Answer. U.S. sanctions have been tangible reminders of our deep 
concern about Syrian policies, and have served to limit Syria's access 
to sensitive technologies. In the case of Treasury Department's 
designation of the Commercial Bank of Syria, they have also limited 
Syria's ability to conduct financial transactions that might benefit 
designated Foreign Terrorist Organizations. While it may be difficult 
to demonstrate a direct cause and effect relation between sanctions and 
subsequent changes in policy, Syria regularly presses us for changes in 
or removal of the sanctions regime, and has recently expressed an 
interest in taking steps to improve its bilateral relationship with the 
United States.
    The Treasury Department ruling against the Commercial Bank of Syria 
(CBS) has made it difficult for other Syrian banks to establish 
correspondent relationships with U.S. and many European banks.

    Question. According to the long-range building plan, OBO has 
Damascus slated for new embassy construction in 2012. Can you update 
the committee on status of funding, land acquisition, construction 
contracts, and other plans, particularly challenges that might affect 
this plan? Where is the new property?

    Answer. We have received a verbal commitment from the Syrian 
Government to help us locate and purchase a suitable piece of property 
on which to build a new embassy compound in suburban Damascus. With 
that commitment, a team of Department construction experts from the 
State Department's Overseas Buildings Office visited possible locations 
and conducted some initial planning. Unfortunately, we cannot commit 
resources or begin contracting until we have a written agreement with 
the Syrians. If confirmed, one of my priorities will be to secure this 
written agreement.

    Question. How many students from Syria traveled on visas to the 
United States in the last 3 years for which we have complete 
statistics? How do those numbers compare to student visas issued for 
Iraqis and Iranian students? What is the Department doing to improve 
these numbers, especially with regards to Iraqi students, whom PM 
Maliki has pledged to send by the thousands?

    Answer. The number of visas issued to prospective Syrian students 
remains lower than those of Iraqis, and is only a fraction of the 
number issued to Iranian students. The trend in issuances to Syrians 
over the past 3 years, however, is significantly upward, with a 41-
percent increase from 2007 to 2009.

                       F-1 Student Visa Issuances
------------------------------------------------------------------------
            Country                 2007          2008          2009
------------------------------------------------------------------------
Syria.........................     137 (91)     159 (116)     193 (127)
Iraq..........................          162       203 (9)     225 (115)
Iranian.......................          860         1,242         1,677
------------------------------------------------------------------------
Note: The figures above do not include exchange visitor visas (J-1) or
  vocational/technical studies (M-1). They also do not reflect the
  number of students who actually used those visas to travel to the
  U.S., or how many changed status in the U.S. to become students from
  some other visa category. Numbers in parentheses are figures for
  issuance in country, as opposed to nationals who applied for their
  visa in a third country.

    The Embassy in Baghdad first began issuing student visas in 2008, 
among the first category of nonimmigrant visas we processed in Iraq as 
a gesture to Iraq's future generations. In 2009, the Embassy augmented 
the number of American, Iraqi and third-country national employee staff 
as well as computer systems to process nonimmigrant visas in general. 
So far in 2010, the Embassy has issued 27 student visas. The Embassy 
encourages Iraqi students to apply in Baghdad, where there is a 
culturally sensitive staff and Arabic linguists who understand the 
unique challenges facing Iraqi students.
    In July 2009, the Iraqi Government launched the Iraqi Education 
Initiative (IEI), a scholarship fund designed to send thousands of 
Iraqi students to American universities over the next 5 years. There is 
currently a consortium of 229 U.S. universities interested in receiving 
IEI students. Participants in this program apply for J-1 exchange 
visitor visas rather than traditional F-1 student visas. Thus far in 
2010, the Embassy has received 35 applications from students enrolled 
in this program who plan to attend American universities in the spring 
and summer semesters. In a March 23 meeting with the IEI, its Executive 
Director stated that the IEI will make 600 scholarships available for 
2010 and 1,000 scholarships available for 2011. He hopes that IEI will 
fund more scholarships in the future, with the ultimate goal of 10,000 
scholarships per year. Students who currently do not possess the 
necessary command of English will go to the U.S. or the U.K. for 1 year 
of language study before starting their academic programs. These 
scholarships are for undergraduate, masters and Ph.D. programs and are 
valid for the entire duration of the program. The estimated cost is 
$50,000 per student per year.
    The USG supports the Iraq Fulbright Scholars Program aimed at 
building sustainable relationships between U.S. and Iraqi scholars. 
Recently, the program budget was doubled from $2.5 million to $5 
million with support by Prime Minister Maliki, which will support 70 
more students. This is the largest Fulbright Program in the Middle 
East, and includes visiting student, language teaching assistant, 
science, and engineering doctoral programs. In addition, Embassy 
Baghdad is working with State's Educational and Cultural Affairs Bureau 
to start a related ``Fulbright Scholars Program'' with an initial 
budget of $500,000. It will be launched in the summer of 2010 and will 
be for 25 Iraqi scholars, to be placed in one of five U.S. 
universities.
    Processing of Iraqi student visas can be lengthy because of 
security clearances required for each Iraqi student. However, Iraqi 
student applicants and the Iraqi officials working on the scholarship 
program are coordinating with our Embassy to provide enough advance 
time for us to do the necessary security clearances in the U.S. 
interagency system. Ambassador Hill and other Embassy officers have 
visited Iraqi universities to encourage Iraqi students to consider 
studying in the United States.

    Question. Regarding Iraq politics, very few saw Nouri al-Maliki 
emerging as the Prime Minister after the last election. This time, some 
observers are noting a deeply felt ``anyone but Maliki'' sentiment 
among the blocs. A Maliki-led bloc might similarly oppose any of the 
other top-tier names like Allawi or Hakim.

  <bullet> Can you offer us insights to any lesser known talented 
        politicians you have become familiar with that might emerge? 
        Are the political dynamics you are seeing at play in Iraq 
        inspiring or worrisome?

    Answer. As the President, the Secretary and Ambassador Hill all 
have noted, the process of assembling a new Iraqi Government that wins 
the necessary parliamentary majority approval could take some months. 
What is encouraging is that even before the elections, political bloc 
leaders and politicians were crossing ethnic and sectarian lines to 
explore how they could form a broad-based government. They did not do 
this in 2005 or 2006, but Iraqi political culture has developed in 
terms of a diminished sectarian sensitivity among top political 
figures, compared to the 2005 and 2006 experiences where only U.S. 
pressure brought Sunni Arabs into the government. Also encouraging is 
that the last two elections (January 2009 provincial legislature 
elections and the March 2010 national parliamentary elections) used an 
``open-list'' system that allows voters to cast ballots directly for 
individual candidates instead of lists. This will bring forward new 
political figures whose roots are closer to the populace and it will 
also compel parliamentarians to stay more closely connected to 
constituent concerns.
    There are many up and coming Iraqi politicians whose names we 
didn't know even as recently as 2 years ago; they are emerging now in 
provincial legislatures, for example, and some will emerge as a result 
of the March 2010 election. Some will have tribal connections, and 
others will come from business, education, and legal backgrounds. We 
ought to maintain a robust international visitor and exchange program, 
including with USAID and State Department-funded technical assistance 
programs for the new Parliament, in order to help build the capacity of 
the new legislatures and also to expose them to Western points of view. 
Developing positive relationships with future leaders is in our mutual 
interest.

    Question. You mentioned in your statement, the plight of Iraq's 
Christians. Is there more the United States can or should do on this 
issue?

    Answer. Ambassador Hill meets regularly with Iraqi Christian 
leaders who are concerned about both the security situation and the 
decline in their communities as a result of the Christian exodus. 
Ambassador Hill and General Odierno have urged Prime Minister Maliki 
and his security team, as well as the Governor of Ninewah province 
where most of the security attacks against Christians have occurred, to 
boost security measures to protect Christians. According to Iraqi 
Christian leaders, this often spurs a good short-term Iraqi security 
response which tapers off over time. In addition, we have raised the 
security problems facing Iraqi Christians with Kurdish Regional 
Government authorities since some of the affected Christian communities 
live right along the Arab-Kurd fault line in northern Iraq. The Kurdish 
authorities have promised to do all that they can, and most of the 
security problems are outside areas the Peshmerga control.
    The U.S. has also provided targeted economic and humanitarian 
assistance to these communities and is likely to continue doing so.

    Question. According to the 2009 State Department Human Rights 
Report on Syria, despite guarantees in the Syrian Constitution to 
protect the right to free speech, the freedom of the press, and the 
right of assembly, the Syrian Government continues to violate these 
rights using provisions of the Emergency Law that was enacted after the 
government declared a state of emergency in 1963.

  <bullet> As Ambassador, what would you do to encourage the Syrian 
        Government to respect the fundamental rights of the Syrian 
        people that are protected by the country's constitution?

    Answer. If confirmed, I would take three simultaneous approaches on 
human rights issues. First, in private, I would raise individual cases 
with the Syrian authorities, especially those that have generated 
international attention with NGOs like Amnesty International, Human 
Rights Watch and the Committee to Protect Journalists. The Syrians need 
to understand that as they try to promote a ``new Syria'' their human 
rights record detracts from their credibility. Second, I would 
coordinate with and seek to persuade other governments and the United 
Nations to raise human rights cases with the Syrians, so that the 
authorities in Damascus understand that this is not merely an American/
NGO-inspired campaign against Syria. Finally, where it does not 
endanger Syrian activists, I would like to meet them myself to 
demonstrate our high-level support or have an embassy officer meet 
them. This will be easier to do with activists who work, for example, 
with women's rights. Occasionally, we may use public events to 
highlight our concerns. For example, a Syrian woman finally obtained 
Syrian Government approval to attend a ceremony in Washington earlier 
this month as one of the winners of the State Department's 
International Women of Courage Award, an event attended by both the 
Secretary of State and First Lady Michelle Obama.

    Question. The 2009 State Department Human Rights Report on Syria 
notes that ``security forces continued to use torture'' during the 
reporting period despite provisions in Syrian law preventing the state 
from using both mental and physical torture. According to the report, 
political activists were among those tortured by the Syrian Government.

  <bullet> In your capacity as Ambassador, how would you engage the 
        Syrian Government on this issue?

    Answer. Torture and extrajudicial killings are major problems we 
highlighted in the 2009 Country Report on Human Rights Practices. I 
would raise these issues in private with the Syrian authorities, 
reminding them of their obligations under both Syrian law and under the 
U.N. Charter on Universal Human Rights. In my experience, the more 
detailed information we have on an individual's case, the more likely 
the authorities are to take action. I would also emphasize to the 
Syrian authorities that we will continue to make our concerns public 
and that they should expect that other governments and NGOs will do so 
as well. Last, if we see no improvement, we will consider encouraging a 
stronger U.N. investigatory role, as was done in Algeria in the 1990s, 
much to the chagrin of the Algerian authorities.

    Question. According to the 2009 State Department Human Rights 
Report on Syria, ``Lebanese Justice Minister Ibrahim Najjar stated in a 
televised interview that 745 Lebanese citizens remained missing in 
Syria, divided into two categories: convicted criminals and victims of 
enforced disappearances.'' As Ambassador to Syria, would you encourage 
discussions between the Lebanese and Syrian Governments regarding the 
possible release of Lebanese citizens who have been convicted of crimes 
under the 1963 Emergency Law or otherwise arbitrarily detained by the 
Syrian Government? Additionally, would you encourage the Syrian 
Government to release other foreign nationals who have been detained 
under these circumstances?

    Answer. Human rights issues remain a priority for the Department of 
State and will be a focus of my work in Syria, if confirmed. The issue 
of Lebanese detainees in Syria remains a concern for us and for the 
Lebanese Government, as outlined during Lebanese President Sleiman's 
visit to Damascus in August, 2009. If confirmed, I would encourage 
Syria to take meaningful steps to support its pledge of a new era in 
bilateral relations with Lebanon and seek much-needed progress on this 
issue, including through high-level bilateral discussions. Arbitrary 
detentions represent a gross violation of human rights and we remain 
supportive of Lebanon's efforts to address this issue in its 
discussions with Syria.

    Question. Why has the Department decided to lift the objection to 
Syria's application to the WTO? Where does that fit into the engagement 
strategy?

    Answer. The United States will not oppose Syria's application to 
begin accession to the World Trade Organization (WTO). If the Syrians 
choose to apply for accession, it would be the first step in a long and 
highly demanding process of meeting WTO standards. If Syria is willing 
to comply with the measures required to achieve full WTO membership, it 
will need to implement significant reforms--including dropping its 
adherence to certain aspects of the Arab League Central Boycott of 
Israel--which we support. It will also need to improve labor rights, 
one of the areas that the 2009 human rights report identified as 
problematic. Syria has a thriving and resourceful entrepreneurial class 
that is hungry for reforms of the type required by the WTO. We believe 
this decision will empower Syrians who want to reform their economy.
                                 ______
                                 

    Responses of Hon. Robert Stephen Ford to Questions Submitted by
                      Senator Russell D. Feingold

    Question. While I support increasing the reach of our diplomats, I 
continue to have concerns about the behavior of the Syrian regime, 
including its support for Hamas and Hezbollah, lack of cooperation and 
openness with regard to its nuclear activities, and worsening human 
rights record. If confirmed, what do you hope to achieve in regard to 
these issues, and what tools do you see at your disposal for keeping a 
strong and vocal focus on these and other U.S. concerns as part of our 
increased diplomatic profile in Damascus?

    Answer. I share your concerns over these issues, and if confirmed, 
I would press the Syrian Government to play a more constructive role in 
the region. The U.S. has penalized Syria with sanctions resulting from 
four Executive orders, a Treasury Department ruling, the Syria 
Accountability Act, and its designation as a State Sponsor of Terrorism 
for its support of Hamas and other terrorist groups. The Syrians would 
like to see a reduction or elimination of the sanctions that we apply 
to them. It will be impossible to do so while they support terrorists 
groups like Hezbollah and Hamas. If confirmed, I will be very clear 
with them about that. As a signatory to the Nuclear Nonproliferation 
Treaty, it is incumbent upon Syria to cooperate fully with the IAEA 
when it wants to do inspections. In the area of both Syrian support for 
terrorist groups and its failure to cooperate with the IAEA, I would 
also work to mobilize influential ambassador colleagues in Damascus 
from the United Nations mission, the European Union, Turkey, Russia, 
and Saudi Arabia to get their governments to press the Syrians too.
Hamas
    With regard to Hamas, if confirmed I would remind the Syrian 
Government that Syrian support for Palestinian extremists complicates 
Syria's pursuit of regaining the Golan. The Syrian Government continues 
to provide support and sanctuary to Khaled Mishaal and other Hamas 
members. Syria's relationship with Hamas and other Palestinian 
rejectionist groups is one of the most troubling--and most difficult--
issues we confront in engaging Syria. If confirmed, in coordination 
with Senator Mitchell's team, I would work to secure Syrian agreement 
to weigh in with Palestinian extremist groups based in Damascus to 
support, or at least not oppose, a resumption of Israel-Palestinian 
negotiations if we can get them restarted.
Hezbollah
    Our policy of intensified dialogue with Syria will not come at the 
expense of any other state in the region, especially Lebanon. The 
United States is firm in its commitment to Lebanon's sovereignty and 
stability, and we expect Syria to respect Lebanon's independence as 
well. In recent weeks, we have seen sharp rhetorical exchanges between 
Hezbollah and our friends in Israel, and the Syrians have joined in on 
occasion. It is not in Syria's interest for new fighting to break out 
in Lebanon, as the fighting could escalate and involve Syria itself. We 
have also made it clear to Syria that as long as it supports terrorist 
groups like Hezbollah and Hamas, we will maintain sanctions.
Nuclear Activities
    It is incumbent on the Syrians to cooperate with the IAEA. The 
Syrians may want a civil nuclear energy program, but given that there 
is an ongoing IAEA investigation, if confirmed I would press my 
diplomatic colleagues in Damascus to not hold any such discussions 
until the current investigation has been resolved. I would also consult 
closely with our mission in Vienna to determine which Syrian sites are 
the most important for the IAEA and try to get the Syrians to permit 
inspections at these locations first. I would emphasize to the Syrian 
authorities that further delays in cooperating with the IAEA will only 
heighten suspicions about Syria's nuclear program and make it more 
difficult for them to develop credible partners in the nuclear or other 
energy sectors. Our ultimate approach will depend on whether Syria 
continues to stonewall the IAEA inspectors. We continue to consult with 
our international partners on possible next steps in light of the 
serious nature of the IAEA's findings in its most recent reports.
Human Rights
    We believe that real progress on human rights in Syria is more 
likely to result from sustained, principled engagement, sometimes in 
public and sometimes in private. If confirmed, I would remind Syria 
that their human rights record does not help their image abroad, 
particularly the continuing detention of prominent activists, and I 
would press for their release. To gain more traction, we must 
acknowledge where the Syrian Government has made limited progress, such 
as women's rights. In areas where it is not, such as press freedom, 
labor rights, or treatment of the Kurdish minority for example, our 
public diplomacy efforts on the ground are all the more important to 
ensure the Syrian people are provided alternative points of view. If 
Syria proceeds with a WTO membership application, we will have a direct 
avenue to negotiate labor rights as well. While the Embassy is 
currently working hard to engage the Syrian public, our efforts have 
been underresourced for years. I believe we need a ``surge'' of sorts 
in public diplomacy, by increasing the number of our international 
visitor exchange programs, scholarships, youth exchanges, cultural 
events, English-language instruction and private American outreach to 
Syria.

    Question. Syria continues to strengthen ties with Iran, a 
problematic prospect for U.S. interests in the region, particularly as 
we work with international partners to put pressure on Iran over its 
nuclear program. What are the various potential fracture points and 
divergent interests in the Syria-Iran relationship and what diplomatic 
options do you see for the U.S. in discouraging that relationship?

    Answer. Syria's relationship with Iran is a complicated picture of 
converging interests. The relationship is primarily based on security 
cooperation, rather than ideological or cultural ties or complementary 
economies. With respect to Israel, the Syrians have a clear interest in 
negotiating a peace agreement for the return of the Golan Heights, 
whereas Iran opposes any form of peace with Israel.
    For 16 years, going back to Syrian President Hafez al-Assad, the 
Syrian Government has said that a peace agreement with Israel, 
including normalized relations, could be in Syria's interest. I have 
never heard President Ahmadinejad of Iran say that, and it is unclear 
what the impact would be on the Syrian-Iranian relationship if there 
was genuine forward movement on an Israel-Syrian peace negotiation 
track.
    In addition, Syria and Iran appear to have divergent goals in Iraq. 
Iran seeks to have a preponderant Shia Islamist influence, but the 
Iraqi oppositionists whom Syria backs are mainly Sunni secularists who 
intensely distrust Iran. Moreover, Iran has traditionally supported a 
decentralized (and more easily dominated) Iraqi state, while the 
Syrians traditionally have feared for Iraqi unity and therefore wanted 
a stronger central state. Above all, if confirmed, my goal would be to 
see the Syrians stop all infiltration of foreign fighters into Iraq who 
attack our soldiers. It is also important for Syria to stop promoting 
Iraqi oppositionists trying to bring down the constitutional state in 
Iraq and to build ties to the next government as a way of 
counterbalancing some of the Iranian influence there. Given the 
potential economic stakes for Damascus, there may be opportunities 
there, though I cannot promise fast results.

    Question. The State Department's latest Human Rights Report on 
Syria states that the ``human rights situation worsened'' during the 
course of the past year. What do you see as the role of human rights in 
the U.S. diplomatic agenda for Syria and how would you raise the level 
of focus on this issue with the government, and our international 
partners, if confirmed?

    Answer. As I stated in response to your first question, there are a 
number of approaches that we can take to improving the human rights 
situation in Syria. The aspirations of people in the Middle East for 
dignity, economic opportunity and respect for their human rights, are 
dear to me personally and professionally. I am proud to say that I 
worked hard on that issue, human rights and respect for human rights, 
when I was Ambassador in Algeria, and I would do so in Syria, if I am 
confirmed. As the just-issued State Department report on the human 
rights situation in Syria noted, there are very big problems there. And 
there is much that an ambassador could and should do to help Syrians 
determine how best to implement peaceful reforms and improve respect 
for human rights. If confirmed, one of the first steps I would 
undertake is to review with Syrian officials press items and reports 
from organizations like Human Rights Watch, Amnesty International, and 
the Committee to Protect Journalists to show the Syrian officials how 
badly their actions reflect on them in the West. Our Embassy should 
have occasional contacts with those NGOs to understand their concerns 
and trade points of view on the situation on the ground in Syria. If 
confirmed, I would also want to see our visiting officials join me in 
raising human rights issues, and I would highlight for select 
ambassador colleagues the importance of their officials also raising 
them. (The President of Italy is in Syria on March 18, for example.) 
Where it does not endanger Syrian activists, I would also seek to meet 
them myself or have my staff do so.

    Question. How would you assess Syria's view of its role in the 
region? And what diplomatic tools and pressure points does our renewed 
diplomatic representation in Damascus provide for influencing Syria's 
calculations about its behavior vis-a-vis its neighbors?

    Answer. While I cannot speak for another government, it is our 
perception that Syria would like to become an indispensable party to 
progress in the Levant and eventually to the Mediterranean region more 
broadly. Richard Haas of the Council on Foreign Relations in New York 
just returned from Syria last month and wrote a piece to that effect in 
Newsweek magazine. If linking up to the Mediterranean region is Syria's 
goal, then it must play a more constructive role in the region, and we 
can help to show it the way forward. Our strong encouragement for 
participation in the Middle East peace process can help to move Syria 
and Israel closer to negotiations, indirect or otherwise and perhaps 
eventually result in an end to Syrian support for Palestinian 
rejectionists and Hezbollah. Our strong stand in favor of Lebanese 
sovereignty and opposition to Syrian support for Hezbollah will 
reinforce improvements in the Lebanese-Syrian bilateral relationship 
which are already underway. On the eastern side of Syria, our outreach 
to Syria supports our partnership with the Government of Iraq, and has 
the potential to promote greater security and stability for the 
government about to form in Baghdad. Greater U.S. engagement with Syria 
has the potential to benefit other nations in the region, and our 
friends know that.
                                 ______
                                 

    Responses of Hon. Robert Stephen Ford to Questions Submitted by
                         Senator Barbara Boxer

    Question. I understand that the administration must soon renew an 
important Executive order (E.O.) involving Syria--E.O. 13338--which 
sanctions individuals and entities linked to the inner circle of the 
Syrian Government.

  <bullet> Can you confirm that the administration will renew E.O. 
        13338 and not weaken it in any way?

    Answer. Absent major Syrian policy changes addressing any of the 
various issues of concern identified in E.O. 13338, I would expect the 
administration to renew the national emergency in May 2010.

    Question. I understand that the administration must also renew E.O. 
13441 which sanctions individuals undermining the sovereignty of 
Lebanon or its democratic processes or institutions.

  <bullet> Given that Syria is doing absolutely nothing to stem the 
        flow of weapons into Lebanon aimed for Hezbollah, can you also 
        confirm that the administration will renew and not weaken 
        E.O.13441 in any way?

    Answer. Supporting the development of a sovereign, stable, and 
democratic Lebanon remains a priority for the United States. Absent a 
significant change in Syrian policy on arming Hezbollah, I would expect 
the administration to renew E.O. 13441 in August 2010.

    Question. On February 14, 2005, the Prime Minister of Lebanon, 
Rafiq al-Hariri, was murdered, along with 22 others, when a blast hit 
his motorcade in downtown Beirut. The blast was so powerful it left a 
10-foot crater in the street.
    Tens of thousands of Lebanese citizens took to the streets and 
accused Syria of carrying out the attack. The United States pulled 
then-Ambassador Margaret Scobey out of Damascus over the killing. And a 
U.N. Special Commission of Inquiry found links between the Syrian 
Government and the assassination.
    Now, nearly 5 years later, the current body investigating the 
Hariri assassination--the U.N.-backed Special Tribunal for Lebanon--has 
released a report stating that the prosecutor has ``made significant 
progress toward building a case which will bring perpetrators [of the 
attack] to justice.''
    And as I understand, Syria has not been cleared of involvement in 
the attack.

  <bullet> How have conditions changed in Syria since 2005 that warrant 
        restoring an ambassador?

    Answer. Posting an ambassador to Damascus will allow us to pursue 
our national interests more effectively at the most senior levels of 
the Syrian Government. The diplomatic team we have in country now faces 
significant challenges engaging at that level, and we must rely on 
senior level delegations for access. To secure changes in Syrian 
behavior, we need to press the Syrian Government in a firm, coordinated 
fashion. An ambassador in Syria can orchestrate our efforts on many 
issues of concern, including respect for Lebanese sovereignty, arms 
transfers to Hezbollah, and demarcation of the Syrian-Lebanese border. 
We must also press Syria on its tolerance for groups attempting to 
undermine the stability of Iraq and the need to participate 
constructively in the Middle East peace process. We believe that 5 
years of isolation has done nothing to moderate Syria's behavior--and 
in some cases, even made it worse. Syria has become more reliant on 
Iran as a strategic ally, which worsened prospects for Middle East 
peace. Engagement is a tool we use to defend and promote our national 
interests.

  <bullet> How will the findings of the Special Tribunal impact United 
        States-Syrian relations if the report confirms Syrian 
        involvement?

    Answer. The Special Tribunal for Lebanon is a crucial element in 
the effort to end impunity for political assassinations in Lebanon, and 
the United States support for the Tribunal remains unwavering. We have 
made clear that no ``grand bargain'' over the Tribunal will be made 
with Syria. The Tribunal is not a political bargaining chip, and no 
deals will be made at the expense of justice. As U.N. Secretary General 
Ban Ki-moon has affirmed, the Tribunal process is irreversible. As 
evidence of our continued commitment to promoting justice in Lebanon, 
the United States has contributed $20 million for the first 2 years of 
the Tribunal's operations and expects to remain a significant 
contributor going forward. Prosecutor Bellemare and his staff are 
conducting professional, methodical work and we have every expectation 
they will accomplish their goals.
                                 ______
                                 

    Responses of Hon. Robert Stephen Ford to Questions Submitted by
                     Senator Kirsten E. Gillibrand

    Question. Syria Sanctions: While the Syria Accountability Act (SAA) 
has had an impact, it has not deterred Syria from supporting terrorist 
groups like Hezbollah and seeking closer relations with Iran. In fact, 
recent events, such as the February meeting between Bashar al-Asad and 
Ahmadinejad with the leadership of Hezbollah, suggest that Syria is 
moving further away from moderating its foreign policy.

  <bullet> Other than the SAA, what other forceful measures can the 
        U.S. take that would strengthen the message that supporting 
        terrorists groups not only undermines our bilateral 
        relationship but also destabilizes the region?

    Answer. As you point out, sanctions have not been successful in 
bringing about change in Syrian policies with respect to terrorist 
groups and Iran. The most effective measure the U.S. could take to 
lessen Syria's support for terrorist groups and change its relationship 
with Iran is to bring Syria closer to a peace treaty with Israel. Not 
only do the terrorist groups and Iran not share Syria's interest in 
comprehensive Middle East peace, but such a peace treaty would require 
Syria to fundamentally alter its relationships with those entities. If 
confirmed, I would work closely with Special Envoy Mitchell and his 
team to create the conditions for testing Syria's willingness and 
ability to make peace with Israel. Part of this would involve 
convincing the Syrians of the economic and security benefits of a peace 
deal that would include ending Syrian support for terrorist groups.

    Question. Israel: In spite of statements about wanting to negotiate 
peace with Israel through Turkish mediation, the Syrian regime never 
does enough to show that it is serious about finalizing negotiations 
over the Golan Heights.

  <bullet> How will having a U.S. Ambassador in place impact these 
        negotiations? What near-term steps are we seeking from Syria on 
        these negotiations?

    Answer. Currently, our access to the Syrian President and Foreign 
Minister is limited to those occasions when Special Envoy Mitchell or 
other senior diplomats visit Damascus. Having a U.S. Ambassador in 
place would establish a channel for more frequent and responsive 
communication with the top Syrian leadership. Sending an ambassador 
also increases our credibility as mediators. In the near term, Special 
Envoy Mitchell and his team are working on a formula to restart 
negotiations that would satisfy both Israeli and Syrian political 
requirements. If confirmed, I would seek to convince the Syrians to 
stop unhelpful media statements and the media broadcasts they make 
(often anti-Semitic) as a means of convincing us and the Israelis that 
the government in Damascus is serious.

    Question. Iran: Historically, Syria and Iran were united by their 
distrust of Iraq. In recent years, Syria has moved further away from 
the West and closer to Iran. Iranian commercial investment in Syria has 
increased significantly in the last 5 years, but ironically, trade with 
Iran remains lower than Syria's paltry trade levels with the U.S. on 
allowed goods. In November 2009, Israeli forces seized a ship en route 
from Iran to Syria carrying thousands of rockets, bombs, grenades, and 
other weapons. Syria is viewed as a proxy of Iran, particularly with 
regard to providing material and other support to Hamas and Hezbollah.

  <bullet> Do you believe that having a U.S. Ambassador in Damascus 
        will help us separate Iran and Syria? What specific signals are 
        you seeking?

    Answer. I think we should be realistic about the degree to which 
the presence of a U.S. Ambassador can impact the strategic relationship 
between Syria and Iran. At the same time, elevating our diplomatic 
representation will allow us to engage the Syrians in areas where we 
believe their interests and Iran's interests diverge, such as Iraq and 
a possible peace agreement with Israel. If confirmed, I would also be 
in position to deliver a strong message to the Syrian leadership about 
the potential perils of their Iranian alliance in any regional 
conflict, and the gains, economic, security and political, to be had 
from a comprehensive peace agreement.

    Question. Iran: After hosting Under Secretary of State William 
Burns in Damascus in February, President Asad held a joint press 
conference later in the month with Iranian President Ahmadinejad, where 
they both criticized Israel and U.S. policy in the Middle East and then 
held a meeting with the leadership of Lebanese Hezbollah.

  <bullet> If you had already been at your post, how would you have 
        reacted (to President Asad's joint press conference later in 
        the month with Iranian President Ahmadinejad, and their meeting 
        with the leadership of Lebanese Hezbollah)?

    Answer. While the tripartite press conference presented a repugnant 
optic, I find it illustrative of the nature of the Syrian-Iranian 
relationship that Under Secretary Burns' visit may have prompted the 
Iranian head of state to request a public reassurance from Damascus. If 
I had already been at Post when this meeting occurred, I would have 
advised the Syrian leadership that such gratuitous statements are 
incredibly short-sighted--as they undermined Syria's long-held 
contention that it wants a comprehensive Middle East peace and damaged 
the positive momentum resulting from the Under Secretary's visit. I 
would also have sought similar messages to the Syrians from the 
ambassadors of some of our friends in the region to drive that point 
home.

    Question. Syria's Nuclear Program: At a conference organized last 
week by the Organization for Economic Cooperation and Development 
(OECD), the Syrian Deputy Foreign Minister Faysal Mekdad, announced 
that Syria was seeking to develop alternate energy sources including 
civilian nuclear power. I am very concerned with this announcement 
especially given the fact that Syria has refused to fully cooperate 
with the International Atomic Energy Agency (IAEA) over its 
investigation into the suspected nuclear facility that Israel destroyed 
in Syria 2 years ago.

  <bullet> As Iran continues to pose such a grave threat with its 
        secret nuclear program, what steps do we need to take to ensure 
        that Syria does not follow Iran's example but cooperates fully 
        with the IAEA over any actions to develop civilian nuclear 
        energy?

    Answer. I believe that it would be inappropriate for the 
international community to consider offering Syria assistance with a 
civilian nuclear energy project while Syria remains subject to an on-
going IAEA investigation. The U.S. will support the IAEA exercising the 
full-range of its authorities to obtain Syrian cooperation with its 
requests for access and information required to resolve the outstanding 
questions about Syria's nuclear activities. If confirmed, I intend to 
try to persuade Syrian leaders that it is in Syria's long-term national 
interest to comply with the IAEA's demands, which I believe can be done 
in a manner that maintains Syria's security and dignity.

    Question. Syria is an acknowledged supporter--together with Iran--
of Hezbollah. This terrorist organization destabilizes Lebanon, has 
waged war on Israel and continues to amass weapons to be used against 
Israel in the future.

  <bullet> Lebanon: Has the U.S. proposed to Syria that it halt sending 
        weapons to Hezbollah in return for gaining a U.S. 
        ambassadorship?

    Answer. The U.S. has repeatedly used bilateral and multilateral 
pressure to stop Syria's arms shipments to Hezballah, and will continue 
to do so until Syria has fulfilled its obligations under UNSC 
Resolutions 1701, 1680, and 1559. We believe the most effective measure 
the U.S. could take to lessen Syria's support for Hezbollah is to bring 
Syria closer to a peace treaty with Israel, something I would work on 
with Special Envoy Mitchell and his team if I am confirmed.

    Question. Lebanon: What steps are you seeking from Syria that will 
signal that government's willingness to decrease its interference in 
Lebanon's affairs?

    Answer. We want to see Syria honor the commitments made to Prime 
Minister Hariri during his December visit to Damascus, such as 
appointing and beginning the work of a border delineation committee. 
And of course we want to see the Syrians stop the shipment of weapons 
to Hezbollah and Palestinian extremists in Lebanon. The Syrians should 
cooperate with the Lebanese state, including helping ensure that the 
Lebanese state has a monopoly of force in the country.

    Question. Iraq: Syria has been a transit point for foreign fighters 
and weapons heading into Iraq to support the Sunnis. Iraqi PM Maliki 
continues to denounce Syrian support for extremist activities in Iraq. 
While Syria initially cooperated with the U.S. after 9/11, after the 
invasion of Iraq, the Syrian regime has been less than cooperative with 
regard to the border security of Iraq.

  <bullet> What do you see as the possibility for improving Syria's 
        role vis-a-vis Iraq to allow U.S. troops to withdraw on the 
        timeline outlined by President Obama?

    Answer. I believe that Iraq presents a real area of opportunity for 
the U.S. and Syria to make progress in the near term. Syria has real 
national interests in improved economic relations with Iraq and a 
strong government that will ensure the unity of the Iraqi state. The 
Syrians have made some progress in suppressing the networks that 
infiltrate foreign fighters into Iraq, but they can do more--and if 
confirmed, I would press them on this. We also believe that it would be 
possible--and indeed in Syria's own interest--for Syria to cease its 
support for former Iraqi Baathists and Iraqi Islamists who live in 
Syria and undertake activities that are destabilizing to the 
constitutional government in Iraq.

    Question. LGBT Refugees: LGBT refugees fleeing Iraq, Iran and other 
nations in the region go to Syria as one of the countries of first 
asylum where they await the interview process that allows them to move 
on to permanent safety in the United States, Europe, or elsewhere.

  <bullet> As a new Ambassador, will you ensure that all Embassy staff 
        are sensitized to the issues facing the LGBT community and that 
        local staff and translators employed by the Embassy treat LGBT 
        refugees with appropriate sensitivity?

    Answer. If confirmed, I intend to make the promotion of human 
rights a central theme of my diplomacy. Consequently, I believe the 
U.S. Embassy should set the example in Syria for respecting the human 
rights of all the people we serve, including those in the vulnerable 
LGBT refugee population.

    Question. I understand that U.S. refugee processing is hampered by 
Syria's stalling on issuance of visas to U.S. Government personnel. 
This is very disconcerting to me and my colleagues and I urge you to 
make this a priority for discussion of modest steps that Syria's 
Government can take in response to our move of improving diplomatic 
relations.
    Answer. As I stated in my hearing, the U.S. has stepped up 
wonderfully to its moral obligation to help Iraqi refugees, including 
persons who are in danger in Iraq because of their work with us. It is 
my understanding that Under Secretary Burns recently raised our shared 
concerns over the delays in issuing Syrian visas to U.S. Immigration 
Officers with Vice Foreign Minister Faysal Miqdad, who has 
decisionmaking authority on this portfolio. The delays in receiving 
visas have only recently recurred; during the latter half of 2008 and 
most of 2009, DHS circuit riders
did receive visas in time for travel. I agree that this is a modest 
step the Syrians could take to build confidence, and if confirmed, I 
would make it a priority in my discussions.

                                  <all>

</pre></body></html>
